U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General



       NATIONAL OCEANIC AND
 ATMOSPHERIC ADMINISTRATION


         National Marine Sanctuary Program
      Protects Certain Resources, But Further
            Actions Could Increase Protection




                                  Final Inspection Report
                            No. IPE-18591/February 2008




              PUBLIC RELEASE




             Office of Inspections and Program Evaluations
                                         **"""a

        FEB 1 2 2008
                                        i%   eB
                                          *4ms d   '
                                                       r   UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                                           Washington, D.C. 20230




MEMORANDUM FOR:             Vice Admiral Conrad C. Lautenbacher, Jr., USN (Ret.)
                            Undersecretary for Oceans and Atmosphere
                             and NOAA Administrator

                            John J. Sullivan
                            General Counsel


FROM:
                            rd(l3-
                            Todd J. Zinser

SUBJECT:                    Final Inspection Report: National Marine Sanctuary Program
                            Protects Certain Resources, But Further Actions Could Increase
                            Protection (IPE-1859
                                       (IPE-18591)
                                                 1)

As follow-up to our December 5,2007, draft report, we are pleased to provide you with our final
report on our review of the National Marine Sanctuary Program (NMSP). We have considered
your detailed comments in preparing our final report and have attached them to our draft report
as an appendix.

We are pleased to report that we found the sanctuary program has implemented a number of
management improvements and is generally making progress towards long-term protection of
certain resources within the marine sanctuaries system. However, we also found several areas
that require management attention. For example, the enforcement of sanctuary regulations
remains a challenge. We identified certain areas where enforcement could be improved, in
conjunction with NOAA's Office of Law Enforcement and its Office of General Counsel for
Enforcement and Litigation. Additionally, we found that sanctuary management plan reviews
have not been completed in accordance with the 5-year statutory requirement and that several
sanctuary sites have not been able to secure out-year maintenance and operational funding for
some vessels, buoys, and visitor facilities. Furthermore, while we found that the sanctuary
program collaborates well with many partners on its education, outreach, and research efforts, it
needs to better publicize research results and improve the program's relationship with the
National Marine Fisheries Service. Finally, we noted that opportunities exist to renew
discussions with the U.S. Navy regarding seafloor mapping data issues, which were last
discussed in 2000.

The report presents a number of recommendations, summarized on pages 5 1-53, that we believe
will help address our concerns and further strengthen the sanctuary program. We are pleased to
note that NOAA has begun to address many of these recommendations, as noted in your response
to our draft report. We request that you provide us with an action plan addressing the status of
the report recommendations within 60 calendar days.
We thank the personnel in NOAA headquarters and field offices for their assistance and the
courtesies they extended to us during our review. If you have any questions about our report,
please call me at (202) 482-4661, or Lisa Allen, Acting Assistant Inspector General for
Inspections and Program Evaluations, at (202) 482-2754.

Attachment


Cc:    Mary M. Glackin, Deputy Undersecretary for Oceans and Atmosphere
       Jack Dunnigan, NOS Assistant Administrator
       Dr. James W. Balsiger, Acting NMFS Assistant Administrator
       Jane Luxton, NOAA General Counsel
       Dan Basta, NMSP Director
       Dale Jones, NOAA Office of Law Enforcement Director
       Mack Cato, NOAA Audits Liaison
                                                               CONTENTS
Summary .......................................................................................................................................... i
Background ......................................................................................................................................1
Objectives, Scope, and Methodology ..............................................................................................9
Observations and Conclusions.......................................................................................................12
I. National Marine Sanctuary Program Is Making Progress Towards Long-Term Resource
   Protection .................................................................................................................................12
II. Enforcement of Sanctuary Regulations Needs to be Strengthened .........................................17
     A. OLE’s efforts to enforce sanctuary regulations have recently increased but additional
        steps need to be taken ........................................................................................................17
     B. Most state and territorial government partners do not have adequate incentives or
        tools to enforce sanctuary regulations................................................................................20
     C. NMSP needs more enforcement data to help better manage sanctuaries ..........................25
III. Management of the Sanctuary Program Has Significantly Improved, but Several Issues
     Require More Attention ...........................................................................................................29
     A. The 5-year statutory requirement to complete management plan reviews has not been
        met, but additional resources are now helping to speed up the process ............................29
     B. Funding shortfalls could hamper maintenance and operation of vessels, some visitor
        interpretative centers, and data buoys................................................................................32
IV. NMSP Collaborates with Many Partners, but Stronger Coordination is Warranted in
    Some Cases ..............................................................................................................................37
     A. Most sanctuary sites have active public outreach and education programs.......................37
     B. Efforts to publicize research results to key audiences could be improved ........................40
     C. Sanctuaries actively leverage other resources to do research and bottom mapping,
        but more analysis and collaborative actions could increase resource protection...............41
     D. NMSP and the National Marine Fisheries Service sometimes collaborate well but
        need to further improve their working relationships..........................................................46
Summary of Recommendations.....................................................................................................51
Appendix: NOAA Management Response to the OIG Draft Report ............................................54
U.S. Department of Commerce                                                              Final Report IPE-18591
Office of Inspector General                                                                       February 2008


                                                 SUMMARY

The National Marine Sanctuary System was established by the Marine Protection, Research, and
Sanctuaries Act of 1972. The act authorizes the Secretary of Commerce to designate and manage
areas of the marine environment with special national significance due to their conservation,
scientific, cultural, historical, or educational qualities as national marine sanctuaries. The system
now includes 13 marine sanctuaries and one national monument (see figure 1).1 National marine
sanctuaries range in size
from one-quarter square
                               Figure 1. National Marine Sanctuary Sites
mile in American
Samoa’s Fagatele Bay to
more than 5,300 square
miles in Monterey Bay,
California. At 138,000
square miles,
Papahanaumokuakea
Marine National
Monument—added in
2006—is the largest
marine protected area in
the world. All total, the
sanctuaries and marine
monument now
encompass more than
158,000 square miles of
ocean and Great Lakes          Source: http://sanctuaries.noaa.gov/welcome.html
marine habitats. The
special habitats of the
sanctuaries include deep ocean and near-shore coral reefs, whale migration corridors, deep sea
canyons, areas of deep water upwelling, seamounts, kelp forests, and sea grass beds. Historic
shipwrecks are also part of the system.

The National Oceanic and Atmospheric Administration’s (NOAA) National Ocean Service
(NOS) is responsible for managing the National Marine Sanctuary Program (NMSP). The
sanctuary program’s budget was $56 million in fiscal year 2007. The fiscal year 2008 President’s

1
  In 1992, Title III of the Marine Protection, Research, and Sanctuaries Act was reauthorized separately as the
National Marine Sanctuaries Act. In the 2000 reauthorization of the National Marine Sanctuaries Act, Congress
wrote that NOAA could consider designating a sanctuary in the northwestern Hawaiian Islands, at that time a coral
reef ecosystem reserve. A 2006 Presidential proclamation created the Papahanaumokuakea Marine National
Monument—not a marine sanctuary—and authorized NOAA, DOI, and the state of Hawaii to manage the
monument as co-trustees. NMSP manages the marine portions. Monuments differ from sanctuaries in that
monuments are established and principally managed under authority of the Antiquities Act, not the National Marine
Sanctuaries Act. For example, monuments under the Antiquities Act do not provide for sanctuary advisory councils,
authorize the assessment of civil penalties, or provide for resource damage assessment and recovery activities.
.



                                                        i
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

Budget increases that amount to $62.5 million, the highest ever for the program. Historically,
however, most of the sanctuaries have had modest budgets, limited staffs, and few assets.

NMSP works with the public and federal, state, tribal, and local officials to promote resource
protection while also facilitating public and commercial uses that are compatible with resource
protection in the sanctuaries, such as commercial and recreational fishing, diving, and repair of
seawalls. Sanctuary program officials coordinate with other NOAA offices on scientific research,
marine zoning, commercial and recreational fishing, ocean resource economics, enforcement,
emergency response, and damage assessment. They also coordinate sanctuary activities with the
Department of the Interior, the Environmental Protection Agency (EPA), U.S. Coast Guard, U.S.
Navy, U.S. Army Corps of Engineers, and other agencies.

We evaluated the program’s effectiveness and examined the conduct of selected activities to
determine whether they are efficient. Our review focused on whether the program is
accomplishing its core statutory objective of providing long-term protection of marine and
cultural resources. We also reviewed the effectiveness of NMSP’s collaboration with NOS and
other NOAA offices, and with federal, state, tribal, and local entities with respect to
programmatic activities, such as the development and management of marine protected areas,
enforcement of sanctuary regulations, bottom habitat protection and conservation, and scientific
research. We identified specific management issues and best practices impacting program
objectives and effectiveness, and reviewed management initiatives designed to improve NMSP
program performance and accountability. We also identified constraints that inhibit the
program’s ability to accomplish its statutory objectives. Our specific observations are as follows:

The sanctuary program is generally making progress towards long-term protection of
marine ecosystems and cultural resources. We found NMSP has successfully protected certain
components of marine ecosystems and certain cultural resources under the National Marine
Sanctuaries Act. For example, incompatible uses are statutorily prohibited or restricted in some
sanctuaries, such as the ban on the production of oil, gas, or minerals in the Cordell Bank
sanctuary. The sanctuary program also protects certain cultural resources by prohibiting divers
from taking maritime artifacts from shipwreck sites. The program effectively complements other
federal, state, and local resource protection efforts by offering benefits other laws or regulations
do not.

As required by statute, commercial uses compatible with resource protection are allowed in
sanctuaries. At most sanctuaries, commercial and recreational activities such as scuba diving,
kayak rentals, charter boat rentals, and recreational fishing have been allowed. Moreover,
shipping through several sanctuaries’ boundaries to and from busy ports is allowed. Commercial
fishing is allowed in certain sanctuary waters, with fishing gear and seasonal restrictions, in
coordination with the National Marine Fisheries Service (NMFS) and regional fishery
management councils. Most external criticism of the program involves regulating fishing within
sanctuary waters (see page 12).

Enforcement of sanctuary regulations needs to be strengthened. The National Marine
Fisheries Service’s Office of Law Enforcement (OLE) has primary law enforcement
responsibility for the sanctuary program. OLE works closely with the U.S. Coast Guard and,



                                                 ii
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

where possible, a number of state and territorial marine enforcement agencies under joint
enforcement agreements (JEAs) to enforce federal marine, including sanctuary, laws and
regulations. Enforcement challenges in the sanctuaries range from permit compliance to offshore
vessel traffic to a range of natural resource injuries, including oil spills, vessel groundings, and
plane crashes. Many sanctuaries are located at considerable distances from shore and thus
present yet another challenge for enforcement. Most sanctuary and enforcement officials and
other stakeholders we spoke to believe the current law enforcement presence in the sanctuary
system is insufficient to meet these challenges.

OLE has recently placed greater emphasis on sanctuary enforcement issues, but we identified
several areas in which the enforcement of sanctuary regulations can be improved. We found
many OLE officials with sanctuary liaison responsibility are not actively engaged with the
sanctuary advisory councils. We recommend that OLE sanctuary liaisons communicate more
with sanctuary staff and advisory councils and form a law enforcement working group at each
sanctuary site. Second, we learned most state and territorial government partners do not have
adequate incentives or resources to enforce sanctuary regulations. Specifically, most partners are
not required to perform any specific type of sanctuary enforcement activities as part of their
agreements with OLE. They do not have summary settlement schedules or the ability to issue
citations (with a few exceptions), and partners are not adequately trained on sanctuary
regulations. We recommend OLE ensure that the operations plan under each relevant joint
enforcement agreement includes a detailed description of the type of sanctuary work to be
performed by the state or territory. In addition, NOAA’s Office of General Counsel for
Enforcement and Litigation (GCEL) should update or create summary settlement schedules for
all sanctuary sites, and OLE, GCEL, and sanctuary officials should provide training for state and
territory partners on sanctuary regulations.

Finally, we found that most sanctuary officials receive only limited (non-law enforcement
sensitive) information from GCEL and OLE on ongoing and closed sanctuary cases. OLE agents
do not usually record the location of a non-sanctuary violation (such as fishing or marine
mammal violations) in OLE’s computer system even if the violation occurs in a sanctuary, so
neither OLE nor the sanctuary program have a full understanding of what type of violations are
occurring in a sanctuary. Sanctuary officials also don’t receive immediate notification when a
payment from a civil fine is deposited into the sanctuary program’s civil penalty accounts
(see page 17).

Management of the sanctuary program has significantly improved, but several issues
require more attention. The sanctuary program’s management has implemented a number of
program improvements over the past four years. These include (1) mandating annual operating
plans for individual sites and regional offices, (2) introducing the development and use of
consistent programmatic performance measures, (3) requiring system-wide monitoring and
sanctuary condition reports, (4) developing a regional management structure, and (5) creating a
headquarters-level position to oversee operations, facilities, and assets. We found that these
improvements have already provided operational benefits and anticipate that they will help the
sanctuary program continue to achieve its goals as the program matures.




                                                 iii
U.S. Department of Commerce                                                              Final Report IPE-18591
Office of Inspector General                                                                       February 2008

However, we noted two areas that need more attention. First, management plan reviews2 at all
the sanctuaries have not been completed within the 5-year statutory requirement, although
sanctuary program managers are currently devoting additional resources to completing the plans.
It remains to be seen whether these improvements will make the review process more efficient.
While we recognize that the planning process itself is useful, we recommend that the sanctuary
program’s managers ensure that management plan reviews are completed promptly, consistent
with new performance measures. Second, we found that several sanctuary sites have not been
able to secure outyear maintenance and operational funding for vessels, buoys, and visitor
facilities. We recommend that the sanctuary program determine the most effective and
appropriate ways to cover these costs (see page 29).

Although the sanctuary program works collaboratively with its partners, stronger
coordination is warranted in some cases. The sanctuary program is charged with enhancing
public awareness, understanding, and appreciation of the marine sanctuaries through outreach
and education, emphasizing the system’s conservation goals and sustainable public uses within
the sanctuaries. Sanctuaries collaborate with many partners, such as local schools, user groups,
non-governmental organizations, and other federal agencies to (1) distribute sanctuary literature
at docks, harbors, and local businesses, (2) sponsor teacher workshops and student contests,
(3) set up information booths at local festivals, and boat and air shows, (4) develop ocean literacy
lesson plans, (5) work on visitor center exhibits, and (6) work with local media and businesses on
informational materials and promotional efforts. Sanctuary advisory councils represent a wide
range of program stakeholders and are building strong foundations for public support and
engagement. Council members actively promote sanctuary matters to their constituencies, work
to obtain their buy-in of sanctuary proposals and projects, and provide input from their
constituencies to the advisory councils.

While we found most sanctuary sites have active outreach and education programs to promote
public awareness of marine resources, their efforts to publicize certain sanctuary research results
could be improved. Program officials collaborate with a broad range of research partners, such as
universities, other federal agencies, territorial research entities, and non-governmental
organizations. These partners do much of the research, monitor the resources, and provide data
needed by the sanctuary sites to manage sanctuary resources. However, although the sanctuary
program is making progress improving its overall research and monitoring capacities, more
analysis and further collaborative actions could increase resource protection. For example, before
continuing with a planned roll-out of a Web-based research integration site begun at the
Monterey Bay sanctuary, program officials should closely examine several pertinent federal,
state, and university efforts and coordinate with these and other relevant entities, when
appropriate, to avoid duplication of effort and resources.

An opportunity may also exist to obtain Navy maps of sea floors in and around certain
sanctuaries since the Navy recently declassified its sonar bottom maps for the Arctic ice cap. We

2
  Each sanctuary is required by statute to develop a management plan. Sanctuary advisory councils—community-
based advisory groups consisting of volunteer representatives from various user groups, government agencies, and
the public—have been formed at each site and work with staff at sanctuaries to review and update sanctuary
management plans and to develop issue-specific action plans.



                                                        iv
U.S. Department of Commerce                                                Final Report IPE-18591
Office of Inspector General                                                         February 2008

recommend that NOS and NMFS renew efforts to obtain sea floor data from the Navy. The
NOAA Office of Coast Survey’s Hydrographic Surveys Division also has bottom data that is
relevant to NMSP and NMFS, and the sanctuary office should improve coordination with that
office.

It is the NMSP’s relationship with NMFS that needs the most work, however. We found that the
NMSP and NMFS generally work well together regarding endangered species and marine
mammal protection and management, and removal of marine debris and derelict gear. However,
their relationship is contentious whenever NMSP proposes to regulate fishing within a
sanctuary’s boundaries. Persistent disagreements and lack of communication between sanctuary
managers and staff, fishery management councils, and NMFS managers and staff have caused
considerable delays in several sanctuary management plan reviews and public fatigue. We heard
many times that dissension within NOAA has compromised the agency’s ability to gain or
maintain public trust. We recommend that the NOS, NMSP, and NMFS leadership commit to
improved dialogue and coordination, issue new staff guidance, and take action to improve their
working relationships at all sanctuary sites and in headquarters (see page 37).

On page 51, we list a summary of our recommendations to address the issues outlined in this
report.



In its January 23, 2008 response to our draft report, NOAA generally concurred with all the
recommendations. NOAA also provided specific comments on several recommendations in the
report, including some suggestions for points of clarification or wording changes. We have made
changes to the final report in response to those comments, when appropriate. A discussion of
NOAA’s response to each recommendation, including actions it has taken, intends to take, and
anticipated timelines, when provided, follows each relevant section in the report.




                                               v
U.S. Department of Commerce                                                                Final Report IPE-18591
Office of Inspector General                                                                         February 2008


                                               BACKGROUND

America’s coastal and ocean areas encompass a broad range of ecosystems, including coastal
oceans, estuaries, coral reefs, and marine sanctuaries. The National Oceanic and Atmospheric
Administration (NOAA) aims to protect, restore, and manage the use of coastal and ocean
resources. But NOAA and other federal, state, tribal, and local agencies are challenged to
balance economic growth and protection of valuable coastal and ocean resources, including those
in areas designated as marine sanctuaries.

National Marine Sanctuary System. The system was established by the Marine Protection,
Research, and Sanctuaries Act of 1972.3 Section 301 of the act authorizes the Secretary of
Commerce to designate and manage areas of the marine environment with special national
significance, due to their conservation, scientific, cultural, historical, or educational qualities, as
national marine sanctuaries. The Office of Ocean and Coastal Resource Management, within
NOAA’s National Ocean Service (NOS), manages 13 marine sanctuaries and one marine
national monument (see table 1) as the National Marine Sanctuary Program (NMSP). National
marine sanctuaries range in size from one-quarter square mile in Fagatele Bay in American
Samoa to more than 5,300 square miles in Monterey Bay, California. The 138,000-square-mile
Papahanaumokuakea Marine National Monument in northwestern Hawaii—the largest marine
protected area in the world—was added in 2006. The program now covers more than 158,000
square miles of ocean and Great Lakes marine habitats. The special habitats of the sanctuaries
and monument include deep ocean and near-shore coral reefs, live bottom4, whale migration
corridors, deep sea canyons, areas of deep water upwelling, seamounts, kelp forests, and sea
grass beds. Historic shipwrecks are also included in the system.

NMSP’s core programs are conservation, scientific research, and education and outreach. The
NMSP works with the public and federal, state, tribal, and local officials to protect resources
while allowing compatible public and commercial activities in the sanctuaries, such as
commercial and recreational fishing, diving, and repair of seawalls. The program’s federal
agency partners include the Department of the Interior, the Environmental Protection Agency,
the U.S. Coast Guard, the U.S. Navy, and the U.S. Army Corps of Engineers. NMSP also
coordinates with other NOAA offices on scientific research, marine zoning, commercial and
recreational fishing, ocean resource economics, enforcement, emergency response, and damage
assessment.




3
  16 U.S.C. 1431 et. seq., as amended. In 1992, Title III of the Marine Protection, Research, and Sanctuaries Act was
reauthorized separately as the National Marine Sanctuaries Act.
4
  Live bottom is a description of habitat which includes sandy flat places and a reef’s rocky ledges that have many
places for invertebrates to latch on to and for fish to hide. Together these animals can form a carpet of living
creatures that in places completely hides the rock and sandy bottom.




                                                         1
U.S. Department of Commerce                                                              Final Report IPE-18591
Office of Inspector General                                                                       February 2008



 Table 1. Designation of Marine Sanctuaries
                                                                                       Area
                                                                          Year                   FY07 Budget
      Sanctuary                      Protected Resources                             (square
                                                                        Designated               ($, thousands)
                                                                                      miles)
 U.S.S. Monitor
                          Wreck of ironclad Civil War ship                1975           1               692.6
 (Va./N.C.)
 * Key Largo (Fla.)       Coral reefs, diverse fisheries, endangered
                                                                          1975          100                   0
                          species, historic wrecks
 Channel Islands          Kelp forests, rocky shores, fisheries,
                                                                          1980          1,658          1,876.0
 (Calif.)                 marine mammals, endangered species
 Gulf of the Farallones   Coastal beaches, fisheries, endangered
                                                                          1981          1,255          1,293.8
 (Calif.)                 whales, almost-pristine estuaries, seabirds
                          Scattered patchy limestone reefs with
 Gray’s Reef (Ga.)        endangered or threatened whales and             1981           23              977.0
                          turtles, and recreational fisheries
                                                                                       5.32
 * Looe Key (Fla.)        Coral reef, diverse fisheries, endangered
                                                                          1981       nautical                 0
                          species, shipwrecks
                                                                                      miles
                                                                                        .25
 Fagatele Bay             Coral tropical reef ecosystem in eroded
                                                                          1986         (163              343.8
 (American Samoa)         volcanic crater
                                                                                      acres)
                          Productive upwelling area above and
 Cordell Bank (Calif.)                                                    1989          526              635.0
                          around pinnacles, ridges, and the bank
                          Third largest coral reef system in the
 Florida Keys (Fla.)      world, shallow near-shore habitats, diverse     1990          3,674          4,914.8
                          fisheries, endangered species, shipwrecks
 Flower Garden Banks      Three underwater banks of healthy
                                                                          1992           56            1,016.1
 (Texas)                  offshore coral reefs, endangered turtles
                          Deep marine canyons, kelp forests, rich
 Monterey Bay (Calif.)                                                    1992          5,328          2,508.9
                          fishing grounds, elephant seals, sea otters
 Gerry E. Studds          Endangered whales and habitat above and
 Stellwagen Bank          around the sand and gravel bank,                1992          842            1,427.8
 (Mass.)                  shipwrecks, fisheries
 Hawaiian Islands
                          Endangered whale breeding and calving
 Humpback Whale                                                           1992          1,300          1,422.1
                          grounds
 (Hawaii)
 Olympic Coast            Isolated shoreline, kelp forests, offshore
                                                                          1994          3,310          1,435.3
 (Wash.)                  seabird colonies, shipwrecks
                          Two centuries of shipwrecks, maritime
 Thunder Bay (Mich.)                                                      2000          448              769.0
                          heritage sites
                          Coral reefs, shipwrecks and maritime
 Papahanaumokuakea
                          heritage sites, deep water around
 Marine National                                                          2006       138,000           6,969.5
                          uninhabited chain of small islands and
 Monument (Hawaii)
                          atolls, seabirds
 Source: NMSP
 * Looe Key and Key Largo are now part of the Florida Keys National Marine Sanctuary.

Regional Offices. In late 2005, NMSP created four regional offices for the program to improve
coordination of program activities with the regional operations of its federal and state partners
given the sanctuary program’s significant growth in terms of personnel, number of sites, assets,
and budgets over the past 10 years. The regional superintendents are involved in cross-cutting



                                                          2
U.S. Department of Commerce                                                                Final Report IPE-18591
Office of Inspector General                                                                         February 2008

issues affecting multiple sites, such as maritime heritage, outreach and education, and research,
as well as coordinating regional activities with their federal and state counterparts. They also
encourage regional offices to help identify potential new sanctuary sites and increase outreach
efforts to regional stakeholders. The four regional offices are headed by former site
superintendents, who are the first-line supervisors of the site superintendents within their regions
(see figure 1). The size of the staff at each regional office varies, although plans tentatively call
for each office to be staffed by a superintendent, two regional coordinators, one administrative
assistant, and regional contractors (as needed and subject to available funding). The Southeast,
Gulf of Mexico, and Caribbean Region now has two employees; the Northeast, Mid-Atlantic,
and Great Lakes Region and the West Coast Region have three employees each; and the Pacific
Islands Region has six employees.

Figure 1. NMSP Regional Structure

                                                NMSP Headquarters
                                                 Silver Spring, Md.


     Pacific Islands Region      West Coast Region       Southeast, Gulf of Mexico,   Northeast, Mid-Atlantic,
         Kihei, Hawaii            Monterey, Calif.         and Caribbean Region       and Great Lakes Region
                                                              Key West, Fla.              Savannah, Ga. a
        Fagatele Bay               Channel Islands
       American Samoa            Southern California            Florida Keys                 Monitor
                                                                  Florida                 North Carolina
      Hawaiian Islands             Cordell Bank
      Humpback Whale             Northern California        Flower Garden Banks          Stellwagen Bank
         Hawaii                                                    Texas                  Massachusetts
                                Gulf of the Farallones
     Papahanaumokuakea          Northern California             Gray’s Reef                Thunder Bay
        Northwestern                                             Georgia                    Michigan
      Hawaiian Islands             Monterey Bay
                                  Central California

                                   Olympic Coast
                                    Washington

Source: NMSP, Implementing a Regional Structure for the National Marine Sanctuary Program, November 2005
a
    The location of this office is temporary.




                                                          3
U.S. Department of Commerce                                                                      Final Report IPE-18591
Office of Inspector General                                                                               February 2008

Funding and Staffing. The              Figure 2: NMSP Funding
sanctuary program started slowly,
with no designated sites for several       70
                                           60              3.15
years, no separate budget for 5                                       9.86                              13.75
                                           50                                                 9.85
years, and no federal field staff for




                                                   $ (million)
                                                                                  15.98
                                           40
10 years. Until recently, the                    9.94
                                           30
individual sanctuary sites had                            53.60       50.32                   46.34     48.81
                                           20                                     35.16
modest budgets, limited staffs, and              32.79
                                           10
few assets. In 1990, the NMSP’s
                                            0
operating budget was $3 million.                 2003     2004        2005        2006        2007      2008
The program’s budget steadily                                           Fiscal Year
increased in the late 1990s and
reached nearly $43 million in 2003                     Procurement, Acquisition, and Construction Funds
(see figure 2). Since then the                         Operations, Research, and Facilities Funds

program’s funding has increased        Source: NOAA Budget Office
more gradually. Until this current
fiscal year, the sanctuary program’s largest budget occurred in 2005 when funds were added for
sanctuary facilities, the proposed Northwestern Hawaiian Islands National Marine Sanctuary,
and the National Marine Sanctuary Foundation (see figure 3). FY 2008 funding is more than $62
million. This includes Operations, Research, and Facilities (ORF) funds, which cover overall
management and operations of the program (mostly the program base budget), and Procurement,
Acquisition, and Construction (PAC) funds, which support construction costs at sanctuary sites
and program acquisitions, including vessels and visitor center exhibits. The sanctuary program
first received PAC funds in 2001.

                                                                 During the program’s early years, cooperative
    Figure 3. The National Marine Sanctuary
              Foundation
                                                                 agreements with state agencies and the National
                                                                 Park Service were drafted to lay out the framework
    The National Marine Sanctuary Foundation, a                  for management of the sites. In the 1980s, the
    501(c) (3) non-governmental organization                     sanctuary program began posting a NOAA Corps
    established in July 2000, has financial assets of
    $5.2 million and receives $3.5 million annually
                                                                 officer for a 2-year assignment at some sanctuaries,
    in federal grants and contributions. Its mission             a practice that continues at several sites today. For
    is to “preserve, protect, and promote America’s              example, the superintendent of the Florida Keys
    [u]nderwater [t]reasures, the nation’s network               sanctuary is a NOAA Corps officer. Today about
    of marine sanctuaries and protected areas.” It is            two-thirds of the sanctuary program’s workforce of
    dedicated to ocean conservation and increasing
    ocean literacy about marine sanctuaries,
                                                                 nearly 400 are federal contractors and state
    focusing on education and outreach. For seven                government employees. The program has grown and
    years, it has sponsored the Capitol Hill Ocean               matured substantially in recent years. As a result, in
    Week symposium to emphasize the importance                   February 2005,5 NOAA proposed to elevate the
    of ocean issues.                                             NMSP from a division office to a program office
    Source: NMSF 2005-2006 Annual Report                         and put NMSP on the same level as the NOS Office
                                                                 of Ocean and Coastal Resource Management.


5
 NOAA first sent a package to Congress to elevate NMSP in 2001. This remained pending until the 2005
submission. A decision is anticipated by 2008.



                                                                    4
U.S. Department of Commerce                                                     Final Report IPE-18591
Office of Inspector General                                                              February 2008

Vessels. Sanctuary vessels are used for         TYPE III – R/V Shearwater at Channel Islands NMS
enforcement of sanctuary regulations and for
monitoring natural and cultural resources.
The program maintains a boat fleet of 46
vessels. The fleet includes 23 “type I”
vessels (less than 29 feet in length), 15 “type
II” (30-49 feet), and 8 type III” (greater than
50 feet). In 2006, the program received
funding for five new vessels, all of which
are expected to become operational in FY
2008.

Visitor centers. All the sanctuaries have         Credit: NMSP
either a visitor center (also referred to at some sites as an education center or a discovery center)
or multiple permanent sanctuary exhibits displayed at partner facilities or both. All but one of the
sanctuary visitor centers is free to the public. These centers promote public awareness by
displaying models of sanctuary resources, such as coral reefs, sea floors, or marine mammals,
along with narratives explaining their importance. Other sites have created permanent sanctuary
exhibits that are housed in facilities leased or owned by sanctuary partners, such as the National
Park Service or local museums.

Data Buoys. Data buoys provide water quality data, such as levels of carbon dioxide,
chlorophyll, and salinity in sanctuary waters. Many sanctuary and external researchers
characterized this data as extremely important to the sanctuary’s monitoring program. In 2004
and 2005, the sanctuary program invested close to $500,000 in 35 west coast data buoys owned
by universities and private research and scientific organizations to retrofit and upgrade the buoys.
This enabled NOAA and NMSP to obtain water quality data for west coast sites and to
participate in the Integrated Ocean Observing System efforts to improve predictions of climate
change and weather and their effects on coastal communities and to more effectively protect and
restore healthy coasts.

The sanctuary program owns a number of data buoys, one located in Cordell Bank and about a
dozen oceanographic data buoys (with lesser capacity than the Cordell Bank buoy) that are
owned by the Olympic Coast sanctuary. These latter buoys are deployed and recovered annually
in the Olympic Coast sanctuary. The Cordell Bank buoy was purchased in 2005 after
negotiations with NOAA’s National Data Buoy Center (NDBC) indicated that a NDBC buoy in
the area could not be moved to an important area within the sanctuary. At Gray’s Reef sanctuary,
the sanctuary program funded an additional data package for an existing NDBC buoy, and
persuaded NDBC to relocate the buoy to a key location within the sanctuary. The sanctuary
program also collaborates with the Partnership for Interdisciplinary Studies of Coastal Oceans
(PISCO), an interdisciplinary collaboration of scientists from four west coast universities that
integrates monitoring of oceanographic factors, including water quality, done at dozens of west
coast sites. The Channel Islands, the Monterey Bay, Gulf of the Farallones, and the Olympic
Coast sanctuaries collaborate directly with PISCO researchers. The sanctuary program pays
about $25,000 annually for the universities and other organizations to augment already existing
buoy networks on the west coast and to help maintain the 35 west coast buoys mentioned above



                                                  5
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

and the other buoys owned by the sanctuary program. In addition, some universities and private
organizations monitor the buoys and assess the data.

Sanctuary Advisory Councils. Section 315 of the act provides the authority to create sanctuary
advisory councils (SACs) for each site. These councils are community-based advisory groups
consisting of volunteer representatives from various user groups, government agencies and the
public. The councils work with staff at the sanctuaries to review and update sanctuary
management plans and to develop issue-specific action plans. At the time of our review, 404
people (243 members and 161 alternates) were serving on advisory councils. Council members
include fishers, divers, teachers, representatives from the farming community, boaters, business
owners, environmentalists, protected area managers, scientists, and elected officials.

Other Volunteer Programs. Volunteers, including the SAC members, contribute more than
100,000 hours of annual service to the sanctuaries. For example, Naturalist Corps volunteers at
the Channel Islands sanctuary teach about the sanctuary’s natural resources at community events
and on whale watching tours. Team OCEAN volunteers in the Florida Keys patrol sanctuary
waters to remind boaters to anchor to buoys, not the reef, and report illegal activity to sanctuary
law enforcement officers. The Great Annual Fish Count, coordinated by the nonprofit Reef
Environmental Education Foundation, trains volunteer divers and snorkelers to identify and
document fish diversity and population in marine sanctuaries.

Management Plan Reviews. Section 304 of the act requires the Secretary of Commerce and, by
delegation, the individual sanctuary sites to develop and review sanctuary management plans.
Management plans are site-specific documents that the sanctuary program uses to manage
individual sanctuaries. The plans summarize existing programs and regulations, articulate goals
and priorities, and guide management planning and decision-making. The development and
review of the management plans also ensure public involvement in the management process. In
addition, these plans set the performance measures for resource protection, research, and
education. In conjunction with sanctuary management plans, annual operating plans are
prepared, and they spell out more specific goals and detailed tasks for day-to-day management at
the sites and of the overall program. Most existing management plans are 10 years old or older.

Science. One of the stated purposes of the act, as outlined in Section 301, is to support, promote
and coordinate scientific research on, and long-term monitoring of, the resources in national
marine sanctuaries. To effectively manage a sanctuary’s resources, scientists need to understand
the sanctuary's ecosystems, biodiversity, and human impacts. Investigations of sanctuary sites,
known as site characterizations, allow scientists to understand the biodiversity, habitats,
resources, and ecological processes controlling each sanctuary’s environment, and the threats
they face. A baseline of the status of resources is necessary for later evaluation of the impacts of
natural events and human activities, and the effectiveness of management strategies. In the past
several years, the sanctuary program has moved towards more systematic monitoring activities.
NOAA's National Centers for Coastal Ocean Science is the program’s main science partner,
although the program leverages numerous federal, state, and local partners who support and
conduct research, monitoring, and evaluation in sanctuary waters. A national science coordinator
located in NOAA headquarters leads this component, one of the three cross-cutting NMSP
programs.



                                                 6
U.S. Department of Commerce                                                               Final Report IPE-18591
Office of Inspector General                                                                        February 2008

Education and Outreach. Another stated purpose in Section 301 of the act is to enhance public
awareness, understanding, and appreciation of the marine sanctuaries through outreach and
education, emphasizing the system’s conservation goals and sustainable public uses within the
sanctuaries. Each sanctuary site has outreach and education functions, which are generally
handled by one or more education coordinators and/or specialists. Such functions are unique to
the individual sanctuary yet have common themes across the sanctuary system. A national
education coordinator leads this component, the second of the three cross-cutting NMSP
programs. This coordinator also leads an Education Executive Council, comprised of a site
representative from each of the four regions, which works on system-wide education policy
issues.

Maritime Heritage. Yet another stated purpose of the act is to enhance sustainable use of
historical, cultural and archaeological marine resources in sanctuaries. NOAA’s Maritime
Heritage Program, a sanctuary program initiative created in 2002,6 focuses on preserving
maritime heritage resources within the sanctuaries, but also promotes maritime heritage
appreciation throughout the entire nation. Maritime heritage includes historic shipwrecks,
prehistoric archaeological sites, archival documents, oral histories, and traditional seafaring by
indigenous cultures. Archaeologists, recreational divers, and commercial treasure salvagers, as
well as other user and interest groups, seek to interact with these maritime heritage resources.
There is maritime heritage staff at four sanctuary sites and at the Pacific Islands regional office.
A national maritime heritage coordinator leads this component, the third cross-cutting NMSP
program.

Enforcement. Section 307 of the act authorizes the enforcement of sanctuary regulations and
permits issued pursuant to the act. The sanctuary program’s enforcement philosophy is
preventive, with a strong emphasis on public outreach and education. The program’s goal is to
provide a law enforcement presence in order to deter and detect violations. However, the
sanctuaries face numerous enforcement challenges, including permit compliance, wildlife
harassment, habitat alteration or destruction, and damage or removal of historical artifacts. Many
of the sanctuaries are located at considerable distance from shore, and this makes enforcing
regulations yet another challenge.

NMFS’ Office of Law Enforcement (OLE) enforces laws that protect and regulate our nation’s
living marine resources and their natural habitats. Most of its enforcement work focuses on the
protection of the nation’s fisheries and compliance with fishing regulations, but OLE has
authority to enforce over 37 statutes, including the sanctuaries act, as well as numerous treaties
related to the conservation and protection of marine resources (see figure 4).

In addition to OLE headquarters in Silver Spring, Maryland, there are 6 divisions consisting of
59 field offices. OLE’s staff of 240 includes 157 special agents, 20 enforcement officers, and 63
technical and support personnel and program analysts. Enforcement officers focus on patrols, but


6
 Until the designation of the Thunder Bay sanctuary in 2000, only the Monitor sanctuary represented maritime
heritage resources within the NMSP. One NMSP official noted that cultural, archeological, and historical resources
were “undervalued and underrepresented in the system” until that time.



                                                         7
U.S. Department of Commerce                                                  Final Report IPE-18591
Office of Inspector General                                                           February 2008

conduct some investigative work. Special agents focus on investigative work, but also participate
in some patrols.

Both OLE and NMSP have developed cooperative
enforcement partnerships with the U.S. Coast Guard,        Figure 4. Primary Laws Enforced by
                                                                     the NMFS Office of Law
the U.S. Fish and Wildlife Service and the National                  Enforcement
Park Service (both of the U.S. Department of Interior),
and various marine and wildlife enforcement agencies       •   Magnuson-Stevens Fishery
in the states and territories where the sanctuaries are        Conservation and Management Act
located. Finally, NOAA’s Office of General Counsel             (16 U.S.C. §1801 et seq.)
also plays a role in sanctuary enforcement efforts.        •   Endangered Species Act (16 U.S.C.
                                                               §1531 et seq.)
Specifically, NOAA’s Office of General Counsel for         •   Marine Mammal Protection Act (16
Natural Resources supports the program by helping to           U.S.C. §1361 et seq.)
prosecute civil damage cases involving injury to           •   Lacey Act (16 U.S.C. §3371 et seq.)
sanctuary resources under section 312 on the National      •   National Marine Sanctuaries Act
Marine Sanctuaries Act. In addition, NOAA’s Office of          (16 U.S.C. §1431 et seq.)
General Counsel for Enforcement and Litigation
prosecutes civil violations committed under the            Source: Office of Law Enforcement
National Marine Sanctuaries Act (see chapter 2).




                                                8
U.S. Department of Commerce                                                                           Final Report IPE-18591
Office of Inspector General                                                                                    February 2008


                             OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General conducted this review from April through August 2007, under
the authority of the Inspector General Act of 1978, as amended; Departmental Organization
Order 10-13, dated August 31, 2006, as amended; and in accordance with the Quality Standards
for Inspections issued by the President's Council on Integrity and Efficiency, dated January 2005.

The objectives of our review were to:
    Determine whether the sanctuary program is meeting its core statutory and program
       objectives;
    Determine the effectiveness of NOAA’s and NOS’ management of the sanctuary
       program;
    Identify specific management issues and best practices at NMSP headquarters, regional
       and field offices as they affect program objectives and effectiveness;
    Review specific sanctuary program initiatives designed to improve performance and
       accountability for the NMSP’s conservation and research programs; and
    Assess the effectiveness of NMSP’s collaboration with other NOAA components and
       federal, state, and local entities.

We did not assess NMSP’s fleet operations, damage assessment, or incident response activities
as part of this review. We used the following methodology to conduct our program evaluation:

NMSP site visits. In addition to our work at NOAA headquarters, we visited 8 of the 14 national
marine sanctuary program offices (see figure 5).

                                           Figure 5. OIG Sanctuary Office Visits
                                                                                                        Stellwagen Bank
          Cordell Bank                                                                                   Scituate, Mass.
          Olema, Calif.




     Gulf of the
     Farallones                                                                                                 Monitor a
    San Francisco                                                                                                Newport
                                                                                                                News, Va.


              Monterey Bay                                                                             Gray’s Reef
               Monterey,                                                                              Savannah, Ga.
                 Calif.

                                                                        Flower Garden Banks               Florida Keys
                                                                           Galveston, Texas               Key West, Fla.
     Source: OIG
     a   The Monitor shipwreck is located off the North Carolina coast, while the sanctuary office is in Newport News, Va.


                                                                9
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

Interviews. Within NOS, we spoke with the assistant administrator, the director and deputy
director of the National Marine Sanctuary Program, the director of the National Centers for
Coastal Ocean Science, the director of the NOAA Coastal Services Center, and officials from the
Marine Protected Areas Center, the National Estuarine Research Reserve System, and the
Hollings Marine Laboratory.

Within NMSP, we met with a number of officials including the deputy director for vessels,
aircraft, facilities, and safety; the chief of national programs; the chief of conservation policy,
and planning; the chief of operations; the chief of stewardship development; the national science
coordinator; the national education coordinator; the national maritime heritage coordinator; the
resource protection and damage assessment coordinator; the national permits coordinator; chief
for strategic planning, and the chief economist. Within the field, we spoke with all four regional
superintendents and the managers of the 14 national marine sanctuary sites (including the marine
national monument).

Within NMFS, we spoke with the assistant administrator, the senior policy advisor, the director
of international affairs, the director of the Office of Protected Resources, the director of the
Office of Sustainable Fisheries, the director of the Office of Habitat Conservation, and the
director and deputy director of the Office of Law Enforcement. Within OLE, we also spoke with
the National Sanctuary Program coordinator and the 12 special agents designated as liaisons for
the sanctuaries. In addition, we spoke with 4 of the 6 NMFS regional administrators and some of
their staff, and with various officials from the regional fishery management councils, including 4
out of the 6 executive directors.

We spoke with officials from NOAA’s Office of the General Counsel, including the assistant
general counsel for enforcement and litigation and assistant general counsel for fisheries. We
also spoke with several NOAA Corps officers involved in the sanctuary program.

Externally, we met with officials from the U.S. Navy and Army Corps of Engineers (Department
of Defense); Fish and Wildlife Service and National Park Service (Department of the Interior);
the Environmental Protection Agency; and the U.S. Coast Guard. We also met with a number of
state law enforcement officials who help enforce sanctuary laws and regulations. In addition, we
met with or spoke to officials from the U.S. Commission on Ocean Policy, Joint Ocean
Commission, National Academy of Sciences’ Division on Earth and Life Studies, Pew Oceans
Commission, the National Marine Sanctuary Foundation, and the National Academy of Public
Administration. We also met with the then general counsel for the U.S. Senate Committee on
Commerce, Science and Transportation. Finally, we met with about 70 members of Sanctuary
Advisory Councils, including ex-officio members, at the 8 sites we visited.

Review of relevant laws, regulations, guidance, procedures and other documents. We
examined current and pending legislation, executive orders, and related regulations for each of
the 13 sanctuaries and the monument. We also reviewed program, policy and planning material
related to NMSP headquarters, regional offices, and individual sites. Finally, we reviewed a
number of external evaluations of the sanctuary program and various recent U.S. ocean policy
reports, including:




                                                10
U.S. Department of Commerce                                               Final Report IPE-18591
Office of Inspector General                                                        February 2008

   •   Joint Ocean Commission Initiative’s Report to the U.S. Senate, From Sea to Shining Sea,
       2006;
   •   Pew Ocean Commission, America’s Living Oceans - Recommendations for a New Ocean
       Policy, 2003;
   •   Committee on Ocean Policy, U.S. Ocean Action Plan, 2004;
   •   Committee on Ocean Policy, U.S. Ocean Action Plan Implementation Update, 2007;
   •   U.S. Ocean Action Plan, 2004 and 2007 update;
   •   Joint Ocean Commission Initiative, 2005 and 2006 reports.

We discussed our findings with NOAA’s Deputy Undersecretary for Oceans and Atmosphere,
the Chief Administrative Officer, the NOS and NMFS Assistant Administrators, the NMSP
Director and Deputy Director, and other senior NOAA officials during and at the conclusion of
the review.




                                              11
U.S. Department of Commerce                                                  Final Report IPE-18591
Office of Inspector General                                                           February 2008


                           OBSERVATIONS AND CONCLUSIONS

I.       National Marine Sanctuary Program Is Making Progress Towards Long-Term
         Resource Protection

The National Marine Sanctuaries Act requires the sanctuary program to provide long-term
protection to natural and cultural resources in national marine sanctuaries designated by the
Secretary of Commerce. Regulations, permitting, and enforcement in the sanctuaries protect
resources and reduce the threats and impacts of human-induced effects on the natural and
maritime heritage resources in the sanctuaries. Specific commercial uses are allowed in
sanctuaries when compatible with resource protection. Incompatible commercial uses are
prohibited or restricted. We found several instances where the sanctuary program complements
other federal programs that protect the marine environment by offering benefits that other
programs do not. NMSP also provides non-regulatory benefits, such as support of research and
monitoring of the condition of prioritized sanctuary resources and the promotion of public
understanding and appreciation of the value of sanctuaries and their resources. NMSP has had
some meaningful success protecting certain components of marine ecosystems and certain
cultural resources, but challenges remain.

Statutory prohibitions and regulations protect certain natural and cultural resources in marine
ecosystems. Sanctuaries are generally designed such that direct impacts within sanctuary
boundaries can be regulated and managed, though there are variables such as increased carbon
dioxide levels in oceans and global climate change effects that negatively impact the condition of
the resources that the sanctuary is charged to protect. Within a sanctuary, regulatory prohibitions
protect certain natural and cultural resources by forbidding or restricting incompatible uses, such
as oil, gas, and mineral exploration, discharge of dredged material, removal of coral from the
seabed, specific fishing practices, destructive anchoring, and certain uses of motorized personal
watercraft or airplanes. For instance, the exploration, development, or production of oil, gas, or
minerals in any area of the Cordell Bank sanctuary is prohibited. Similarly, the permitting of
leasing, exploration, development, or production of oil or gas within the Monterey Bay, Olympic
Coast, and Florida Keys sanctuaries is prohibited. At several sanctuaries, fishing techniques that
alter or destroy the seafloor are prohibited. At Stellwagen Bank, sanctuary designation halted
proposals to build casinos and hotels on offshore platforms and to mine sand and gravel at the
bank. These and other restrictions protect biologically productive bottom habitats and valuable
resources, such as endangered marine mammals, coral, kelp, fish, shellfish, important food web
species (e.g., krill and algae), and shipwrecks.

We found many examples where sanctuary regulations provided some protection to resources by
forbidding or limiting certain activities:

         The Florida Keys sanctuary forbids removal of live coral
         The Monterey Bay sanctuary regulates the taking of jade and chumming for white sharks
         All sanctuaries forbid dredging, dumping, and placement of structures on the seabed




                                                12
U.S. Department of Commerce                                                               Final Report IPE-18591
Office of Inspector General                                                                        February 2008

       Mooring buoys are installed at several sanctuaries to reduce anchor damage to sensitive
        benthic (sea bottom) habitats, and bottom anchoring is banned in defined areas, such as
        coral reef or sea grass habitats
       West Coast sanctuaries forbid aircraft from flying low and disturbing seabirds and marine
        mammals.

The sanctuary program’s protections have had
certain positive results. For example, recent research           Figure 6. Research Shows Results in the
findings show seabird populations in the Gulf of the                       Florida Keys
Farallones have rebounded, most likely due to                    In the Florida Keys sanctuary, marine reserves
decreased human disturbance at breeding and                      that forbid all fishing from certain areas are
nesting times. Managed visitor access, less aircraft             marked with yellow buoys, regulations are
noise from pilots abiding by the “no low flying”                 enforced, and species are regularly monitored.
rule, sanctuary collaboration with other sea bird                In the protected areas, recent research findings
                                                                 show some economically important marine
protection activities, and active educational outreach           species, such as spiny lobsters, grouper and
have contributed to several seabird colonies’                    snapper fish, have increased in abundance
improved productivity.7 In the Monterey Bay                      and/or size, especially at crucial juvenile
sanctuary, research results show that the protected              development or spawning periods.
northern elephant seal population is increasing
                                                                 Researchers working in the Florida Keys have
within sanctuary boundaries as a result of sanctuary             demonstrated with objective scientific results
regulations, outreach, educational programs, and                 that marine reserves, when well designed and
strict State of California protections. The population           actively managed, show positive resource
has grown from less than 100 seals in the 1890's to              protection benefits in the Florida Keys. There
over 100,000 in 2003, with significant increases                 are few other examples of marine reserves in
                                                                 the U.S. where researchers have shown that a
noted since sanctuary designation.8 Elephant seals               species has increased due to protection from
are seen throughout the Monterey Bay sanctuary;                  fishing. Other protected areas have failed, for
four breeding areas are located in the sanctuary.                example, due to the marine reserve’s size or
Also, research in the Florida Keys has demonstrated              location, lack of enforcement, or irregular
positive results from protected marine reserves (see             monitoring of the species of concern.
figure 6).                                                       Sources: Ongoing Monitoring of Tortugas
                                                                 Ecological Reserve: Assessing the
The sanctuary program also protects cultural and                 Consequences of Reserve Designation.
archaeological resources, such as shipwrecks and                 Fonseca, Uhrin, et al, NOAA Technical
maritime artifacts. Examples include the wreck of                Memorandum NOS NCCOS 22, 2006; Change
                                                                 in size and abundance of Caribbean spiny
the U.S.S. Monitor, off the coast of North Carolina,             lobsters in a marine reserve in the Florida
and the shipwrecks in Lake Huron’s Thunder Bay.                  Keys NMS, Cox and Hunt, USA Marine
The Thunder Bay sanctuary prohibits the use of                   Ecology Program Service 294, 2005
certain destructive anchoring devices without a
permit, thereby protecting more than 50 unique
shipwreck sites within the sanctuary by reducing the likelihood of anchor damage.

7
  J.A. Gill, “Approaches to measuring the effects of human disturbance on birds,” Ibis 149, 2007, and C.M. Beale,
“Modeling the Effects of Limiting the Number of Visitors on Failure Rates of Seabird Nests,” Conservation Biology
(Volume 19, Issue 6), December 2005.
8
  U.S. Pacific Marine Mammal Stock Assessments: 2003. Carretta JV, Forney KA, Muto MM, Barlow J, Baker J,
Lowry M, NOAA Technical Memorandum, Southwest Fisheries Science Center, 2004.



                                                       13
U.S. Department of Commerce                                                       Final Report IPE-18591
Office of Inspector General                                                                February 2008

The sanctuary program complements other federal, state, and local resource protection efforts.
The sanctuary act overlaps with other federal marine protection laws and often complements
their authority and fills in where gaps exist. For example, anchor damage and harmful fishing
practices are significant threats to the Flower Garden Banks. The Department of the Interior’s
Minerals Management Service (MMS) has statutory authority only to regulate vessels working in
the offshore oil and gas industry. However, the sanctuary program fills the gap and regulates
fishing boats’ gear use and anchoring in this area. One advisory council member told us this
sanctuary’s “main accomplishments are stopping anchoring and bottom trawling” at the site,
among the healthiest reefs in the western hemisphere with more than 50 percent coral cover.

Sanctuaries also collaborate with and contribute to statewide projects with large scopes. For
example, the Florida Keys sanctuary complements other federal, state, and local water quality
protection efforts. When the Key Largo sanctuary was designated in 1975 and the Florida Keys
                                                               sanctuary was expanded in 1981 and
 Figure 7. Other Ways to Protect Sanctuary Resources           1990, water quality in the Florida Keys
                                                               was already degraded, according to the
 At the Hawaiian Islands Humpback Whale Sanctuary, this        Environmental Protection Agency
 endangered species is increasing at a rate of 7 percent per   (EPA), by an outdated septic system in
 year, in part due to the sanctuary’s educational and outreach
 programs, research, and collaboration with state and other    Key West, runoff from development and
 federal agencies.                                             agriculture, vessel discharges, and the
                                                               effects of several million tourists per
 In the three northern California sanctuaries, resource        year. Poor water in the Keys is a major
 protection was realized through interaction with NMFS and
 the Pacific Fishery Management Council. In June 2004, a       contributor to disease and decline of the
 Monterey Bay sanctuary working group suggested a ban on       coral reefs. Florida Keys sanctuary staff
 the harvest of krill, a crucial food web species. In March    monitor water quality, collaborate with
 2006, the fishery management council, in consultation with    the EPA, the county, and several cities
 NMFS and NOAA, adopted an amendment to a fishery              on water quality issues, and participate
 management plan for pelagic species. However, the Office of
 Management and Budget recently concluded that NOAA’s          on a state water quality steering
 draft proposal to ban the harvest of krill under the          committee. Although state-wide water
 Magnuson-Stevens Act failed to identify the rationale for the quality improvement progress is slow,
 rulemaking and lacks measurable performance objectives.       the Florida Keys sanctuary has
 Therefore, NOAA is reexamining its proposal.                  completed 12 years of monitoring of
 Sources: Trends in Relative Distribution, Abundance and       water quality and monitoring results
 Population Composition of Humpback Whales in Kawaihae         show that, in general, water quality is
 Bay, Hawai‘i 1988-2003, Gabriele, Christine, Rickards,        good sanctuary-wide. However, several
 Susan, Hawai‘i Marine Mammal Consortium, 2003;                significant trends of elevated nutrients
 www.mbnms-simon.org/docs/build/simon_says_2006.pdf;
 October 30, 2007 letter from OMB Office of Information and    continue in nearshore waters and ‘back
 Regulatory Affairs Administrator to NOAA General Counsel.     country’ areas and elevated
                                                               concentrations of fecal bacteria have
                                                               been documented in canals.

Commercial uses are allowed in sanctuaries when compatible with resource protection. At most
sanctuaries, commercial and recreational activities such as scuba diving, kayak rentals, charter
boat rentals, plane flights, and fishing are allowed but are regulated. For example, the Gulf of the
Farallones sanctuary allows commercial flights but bans flights less than 1000 feet to avoid
harassing birds or marine mammals. The Olympic Coast sanctuary only allows airplane flights



                                                   14
U.S. Department of Commerce                                                           Final Report IPE-18591
Office of Inspector General                                                                    February 2008

higher than 2000 feet. Commercial and recreational fishing is allowed in most sanctuary waters,
with certain fishing gear and seasonal restrictions, in coordination with the state, NMFS and the
regional fishery management councils. Some sites (Channel Islands, Florida Keys, and the
Monument) include some areas that are completely closed to fishing and other consumptive
activities. However, the issue of regulating fishing within sanctuary waters is controversial. At
Stellwagen Bank, for example, floating lines connecting lobster pots are allowed even though
such lines can entangle whales. At several sanctuaries, recreational spearfishing is allowed. But a
number of stakeholders told us spearfishing is controversial because it depletes adult reef fish,
and its impacts on the ecosystem are underestimated.

Sanctuaries near busy ports outside of Boston, Seattle and San Francisco are working with the
commercial shipping industry to reduce impacts to whales and other marine mammals from
commercial shipping activity. Using a database containing more than a quarter million whale
sightings over a 25-year period from whale watching and whale research trips, Stellwagen Bank
sanctuary scientists showed that the heaviest concentrations of whales were located directly in
the shipping lanes. In 2007, commercial vessel traffic was rerouted in coordination with the
International Maritime Organization (IMO) to reduce the risk of ship strikes in whale migration
corridors inside the sanctuary – a significant achievement for the sanctuary program. It took
several years of negotiations for the sanctuary program to get ship traffic lanes on IMO maps and
vessels’ shipping orders. Still, sanctuary staff must work with partners to educate captains and
enforce these new lanes for domestic and foreign-flagged vessels, such as container ships,
liquefied natural gas and oil tankers, barges, and cruise liners. Additionally, studies show short-
and long-term impacts of whale watching from the 15 commercial whale watching companies
making daily trips to the sanctuary from April through October each year.
                                             8
                                         NMSP has recently been recognized for its conservation
                                         efforts. In 2006, ocean governance policy makers noted
                                         NMSP as one of only a handful of federal programs that
                                         has made “significant contributions toward maintaining
                                         and improving the quality of coastal resources.”9 Our
                                         review found that NMSP is generally making good
                                         progress towards long-term protection of certain marine
                                         ecosystems and cultural resources in designated
Credit: Stellwagen Bank National Marine
Sanctuary                                sanctuaries. The sanctuary program has protected certain
                                         components of marine ecosystems and certain cultural
resources, and it complements other federal, state, and local resource protection efforts.
Commercial uses are statutorily allowed in sanctuaries when compatible with resource
protection. Although several stakeholders told us they believe sanctuaries should not allow any
activity that might harm a natural resource, independent researchers and sanctuary scientists have
shown that the regulatory and non-regulatory benefits of the sanctuary program are numerous,


9
  Joint Ocean Commission Initiative Report, 2006, From Sea to Shining Sea, page 41. The Joint Ocean Commission
Initiative is a collaborative effort, co-chaired by the chairs of the United States Commission on Ocean Policy
(created by Congress in 2000) and the Pew Oceans Commission, a nongovernmental group, to catalyze ocean policy
reform. Both commissions also proposed “ecosystem management” that is similar to NMSP’s protection efforts.



                                                     15
U.S. Department of Commerce                                                Final Report IPE-18591
Office of Inspector General                                                         February 2008

although much more still needs to be done. Notably, stronger enforcement of regulations could
increase resource protection in the sanctuaries, as discussed in the next section.

 It is worth noting that although sanctuaries are generally designed so that direct impacts
 within sanctuary boundaries can be regulated and managed, there are variables outside of
 sanctuary boundaries, such as increased carbon dioxide levels in oceans and global climate
 change, which negatively impact the condition of the resources that the sanctuary is charged
 to protect.



In its response to our draft report, NOAA indicated that our conclusions were consistent with
those documented through compliance with the Office of Management and Budget's Program
Assessment Rating Tool performance measures and external program reviews. NOAA noted its
appreciation of the OIG’s recognition of the National Marine Sanctuary Program’s progress
towards long-term protection of certain resources within the marine sanctuaries system and
management improvements.




                                              16
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008


II.   Enforcement of Sanctuary Regulations Needs to be Strengthened

Sanctuary officials, enforcement partners, and stakeholders told us they believe the current law
enforcement presence in the sanctuary system is insufficient to meet the challenges. The
sanctuary program, with some assistance from OLE, is currently developing a national
enforcement plan which will include identification of sanctuary resource threats and
development of enforcement profiles and priorities. We also identified several other areas in
which the enforcement of sanctuary regulations can be improved.

First, while OLE has recently placed greater emphasis on sanctuary enforcement issues, we
found OLE sanctuary liaisons (designated OLE officers and agents) need to be more engaged
with the sanctuary advisory councils including the formation of a law enforcement working
group. Second, we noted that most state and territorial government partners do not have adequate
incentives or tools to enforce sanctuary regulations.

Finally, we found that NMSP receives very limited (non-law enforcement sensitive) information
from NOAA’s Office of General Counsel for Enforcement and Litigation (GCEL) and OLE
about either ongoing or closed sanctuary cases. OLE does not readily know the extent of reported
violations that occur in the sanctuaries because it does not actively track violations by location.
In addition, the sanctuary program is not notified when a payment of a civil fine in a particular
case is deposited into NMSP’s civil penalty accounts.


A. OLE’s efforts to enforce sanctuary regulations have recently increased but additional
   steps need to be taken

OLE typically focuses its resources on fishery enforcement and marine mammal protection
issues, not sanctuary enforcement (see table 2). This emphasis on fishery enforcement can be
explained, in part, by the fact that OLE reports to a different NOAA line office—the National
Marine Fisheries Service—than the sanctuary program, which reports to NOS. OLE also only
receives limited funding from NMSP for sanctuary-related enforcement activities. For example,
in FY 2007, the sanctuary program gave OLE $196,726 for one enforcement officer position in
the Monterey Bay National Marine Sanctuary and a portion of the cost of an enforcement
technician position in the Florida Keys National Marine Sanctuary and for enforcement
assistance as part of OLE’s joint enforcement agreement with the state of Georgia. Most of
OLE’s cases to date have involved fishery and marine mammal or endangered species protection
violations.

OLE recently has placed greater emphasis on sanctuary enforcement, but there are additional
steps it could take to strengthen its current sanctuary enforcement efforts. In February 2006, the
director of OLE issued a national directive defining and formalizing OLE’s responsibilities in
relation to the sanctuary program. An OLE headquarters staff agent was assigned to be the
national sanctuary program coordinator and charged with (1) communicating with the sanctuary
program headquarters staff, (2) acting as a law enforcement consultant to NMSP headquarters
staff, (3) overseeing implementation of consistent enforcement policies and procedures, and (4)


                                                17
U.S. Department of Commerce                                                                    Final Report IPE-18591
Office of Inspector General                                                                             February 2008

defining and developing NMSP enforcement requirements and priorities, and identifying the
resources to address these needs.

In addition, each sanctuary (including the monument) was assigned an OLE special agent or
enforcement officer as the primary liaison to be responsible for (1) coordinating law enforcement
services within the sanctuary, (2) acting as a law enforcement consultant to the sanctuary, and (3)
providing direct law enforcement services to the sanctuary, as appropriate. OLE sanctuary
liaisons are not assigned as the primary investigators for a particular sanctuary—sanctuary
investigations are assigned to an agent based on the priorities and needs of the OLE field office.

 Table 2. Office of Law Enforcement Case Breakout by Statute, Fiscal Year 2005a
                                           Primary NOAA Line Office         Number of
                    Name
                                             Responsible for Statute          Cases
 Endangered Species Act                              NMFS                         355
           b
 Lacey Act                                           NMFS                          90
 Magnuson-Stevens Fishery Conservation               NMFS                       1,628
 and Management Act
 Marine Mammal Protection Act                        NMFS                         387
 National Marine Sanctuaries Act                      NOS                         607c
 Other                                               NMFS                         257
 Total                                                                          3,324
 Source: Office of Law Enforcement
 a
   OLE was unable to provide the OIG with FY 2006 or FY 2007 sanctuary case statistics during our review.
 b
   This act makes it unlawful to import, export, transport, buy or sell fish, wildlife and plants taken or possessed in
 violation of federal, state or tribal law. Interstate or foreign commerce in fish and wildlife taken or possessed in
 violation of foreign law also is illegal.
 c
   The majority of these cases (511) were from the Florida Keys National Marine Sanctuary.

Overall, we found that OLE’s sanctuary liaison program has helped to increase enforcement
support within the sanctuary system. However, some of the OLE sanctuary liaisons are not
engaged in sanctuary enforcement activities to the same degree as fisheries enforcement
activities. For example, OLE special agents-in-charge, or their designees, are required to attend
fishery council meetings, but there is no requirement for OLE special agents-in-charge or the
liaisons to attend the SAC meetings. As a result, we found that some do not regularly attend SAC
meetings. OLE should be more involved in SAC activities to educate members about the
enforceability of measures they are considering. As the primary federal organization dedicated
full-time to protecting our nation’s living marine resources, OLE has substantial enforcement
expertise to offer.

We also found that OLE sanctuary liaisons sometimes did not even know what enforcement
activities their federal or state marine and wildlife law enforcement partners were undertaking in
their assigned sanctuary. For example, in one sanctuary we found that the OLE sanctuary liaison
did not know that the state enforcement officials were conducting on-the-water patrols in the
sanctuary until after our meeting with a state official in May 2007. The OLE sanctuary liaison at
another sanctuary did not know what type of resources were being dedicated to enforcing
regulations in the sanctuary by either the state or the relevant U.S. Coast Guard station until



                                                          18
U.S. Department of Commerce                                                  Final Report IPE-18591
Office of Inspector General                                                           February 2008

recently. To strengthen these enforcement partnerships, the SACs should create a law
enforcement working group.

Regional fishery management councils have established law enforcement advisory panels that
generally consist of law enforcement officials from each state represented on the council, OLE,
NOAA’s general counsel for enforcement litigation, the U.S. Coast Guard, the U.S. Fish and
Wildlife Service, and in some cases the public. These panels play a key role in developing
enforceable fisheries regulations, commenting on proposed regulations, and facilitating effective
communications among the agencies involved in fisheries enforcement. Gray’s Reef National
Marine Sanctuary recently established a law enforcement working group as a part of its SAC to
gain community input on enforcement issues and improve communications between enforcement
officers. We believe the creation of similar law enforcement working groups by all of the SACs
would be useful in enhancing communications between enforcement agencies and sanctuary
stakeholders.

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NMFS and NOS Assistant Administrators, take the necessary actions to ensure that:

   The OLE director requires sanctuary liaisons to attend sanctuary advisory council meetings
    in their region.

   The NMSP director directs each sanctuary to create a law enforcement working group,
    consisting of federal and state law enforcement partners and other appropriate stakeholders,
    as part of the sanctuary advisory council.




In its written response to our draft report, NOAA concurred with both of the above
recommendations. Specifically, the response stated that the OLE Director will amend OLE
policy and instruct each OLE Division Special Agent in Charge to ensure that the OLE sanctuary
program point of contact or an alternate designee will attend the relevant SAC meetings. In
addition, the response stated that standing or permanent law enforcement working groups would
provide a good opportunity for coordination, exchange of information and ideas, and
identification of solutions to ongoing or foreseeable enforcement problems. Once implemented,
NOAA’s actions will meet the intent of our recommendations.




                                               19
U.S. Department of Commerce                                                                  Final Report IPE-18591
Office of Inspector General                                                                           February 2008

B. Most state and territorial government partners do not have adequate incentives or tools
   to enforce sanctuary regulations

OLE partners with state and territorial marine law enforcement agencies to help enforce specific
federal marine resource laws. OLE maintains cooperative enforcement agreements and joint
enforcement agreements (JEAs) with most of the coastal states and territories where a sanctuary
is located. Cooperative enforcement agreements are used to formalize partnerships between state
and federal agencies and deputize state officers to enforce specific federal marine resource laws.
JEAs are used to build on these partnerships by outlining federal funding for specific state and
territory activities and address federal enforcement priorities while enhancing state and territory
enforcement resources. JEA funding in FY 2007 was approximately $15 million. The JEA
program appears to be filling some of the fishery enforcement gaps left by shifting federal
enforcement priorities (e.g., increased homeland security activities), but the state and territorial
marine law enforcement agencies need more tools (e.g., sanctuary operations plan, summary
settlement schedules, and training) to adequately enforce sanctuary regulations.

Most JEAs do not specify planned sanctuary enforcement activities. Each JEA includes an
operations plan that identifies the targeted federal enforcement priorities and the specific
activities (including man hours) the JEA partner will perform. For instance, in one plan, the JEA
partner is requested to monitor gill nets, long lines, lobster, and trawl vessels to ensure
compliance with gear types, quota limits, and fish size. This plan also specifies how many man-
hours will be spent to perform this activity. All eight existing JEAs11 mention the partner’s
authority to enforce the National Marine Sanctuaries Act, but most of the operations plans do not
address what enforcement activities will be performed directly in the sanctuaries.

Two exceptions are the JEAs with the state of Georgia and the territory of American Samoa.12
The sanctuary program transferred approximately $40,000 to OLE in FY 2007 for specific
sanctuary enforcement activities to be provided under the JEA by law enforcement officials in
the Georgia Department of Natural Resources’ Wildlife Resources Division. This operations plan
calls for the state of Georgia to enforce sanctuary regulations and help deter violations by (1)
providing a minimum number of at-sea patrol hours, particularly during designated fishing
tournaments in the sanctuary and (2) conducting outreach at captains’ meetings prior to these
tournaments. The June 2007 operations plan in the JEA with American Samoa includes
sanctuary enforcement as a priority and outlines specific activities to be taken by territorial
officials in this area, even though the sanctuary program did not transfer any funding. Unless
specific sanctuary enforcement activities are addressed in the JEA operations plans, JEA partners
have no explicit guidance and little incentive to do the work. OLE should amend the existing
operations plans with applicable JEA partners and ensure that all future JEA operations plans
include specific sanctuary enforcement activities in light of OLE’s commitment to enforce
sanctuary regulations.


11
  California and Hawaii have multiple sanctuaries located within their jurisdictions.
12
  The operations plan under the 2007 JEA with Hawaii includes resource protection (including humpback whales)
as a priority focus, but the plan does not specifically address this or any other enforcement activity in the Humpback
Whale sanctuary.



                                                         20
U.S. Department of Commerce                                                       Final Report IPE-18591
Office of Inspector General                                                                February 2008

As a part of NMSP’s ongoing enforcement requirements review, sanctuary officials are
contemplating the transfer of additional funds from its budget to OLE for other JEA partners, but
they are concerned these partners might use sanctuary funding for other marine enforcement
activities if sanctuary officials are not involved in the process. To ensure accountability by the
state and territorial marine enforcement agencies, we recommend that JEA partners be required
to provide regular reports to OLE on the enforcement work they do specifically in the sanctuaries
(e.g., number of man hours spent patrolling sanctuary) and that OLE provide this information to
sanctuary officials.

It should be noted that while the current JEA operations plan with the state of Florida does not
outline specific enforcement activities to be performed in the Florida Keys National Marine
Sanctuary, the state has been a key enforcement partner with the sanctuary since its inception.
This partnership is currently facilitated through a 2003 memorandum of agreement between
NMSP and the state of Florida’s Fish and Wildlife Conservation Commission. The total funding
provided by NMSP for this agreement is limited to $13 million for the period FY 2003-2008.

While the arrangement between the state of Florida and the Florida Keys sanctuary appears to be
working well, OLE and state of Florida law enforcement officials have questioned whether this
partnership would be better served under the current JEA between the two entities given their
similar law enforcement mission rather than the current NMSP memorandum of agreement with
the state. OLE and state officials informed us that law enforcement officers should not report
directly to sanctuary management due to competing priorities and interests. In addition, GCEL
officials informed us that NMSP has no authority to delegate the enforcement provisions of the
National Marine Sanctuaries Act to the state of Florida. Specifically, GCEL officials stated that
the authority vested in the Secretary of Commerce to enforce NOAA’s marine resource laws has
been delegated to OLE, not to NMSP. Although we have discussed these concerns with
sanctuary officials, they remain hesitant in turning over the management of sanctuary
enforcement activities to OLE because of the accountability issue mentioned above. Given that
OLE is the designated law enforcement agency within NOAA and is ultimately responsible for
the activities performed by the deputized state officers who enforce sanctuary regulations, it
seems reasonable that these activities and related funding should be incorporated under the JEA.
However, as mentioned above, OLE should provide regular reports to NMSP on its sanctuary-
related enforcement activities.

Summary settlements should be used in more sanctuaries. Only three national marine
sanctuaries—Florida Keys, Hawaiian Islands Humpback Whale, and Monterey Bay— are
currently eligible to use summary settlement authority. NOAA GCEL is responsible for
establishing the summary settlement schedules for the sanctuary system. Routinely used in
fisheries enforcement, summary settlement schedules establish fixed fine amounts for small
misdemeanors (e.g., damage or removal of markers) and allow both federal and state
enforcement officers in the field to issue tickets on the spot, similar to a traffic ticket process.
Summary settlements are typically handled by JEA partners.

In the absence of a summary settlement, an enforcement agent has the option of issuing an oral
or written warning or referring the case to GCEL for prosecution. NOAA GCEL can issue a
notice of violation and assessment (NOVA). The NOVA process has been known to take months



                                                  21
U.S. Department of Commerce                                                      Final Report IPE-18591
Office of Inspector General                                                               February 2008

or years after violations occur for respondents to receive the notices or settle the case.
Enforcement officials we spoke to said the majority of sanctuary cases are not complex and do
not require NOVAs. They also said JEA partners would be more inclined to pursue sanctuary
violations if they could issue summary settlements because they offer an immediate sanction
which could assist to deter future violations. Several state law enforcement officials confirmed
this statement. While NOVAs would still be used for larger and more serious violations,
summary settlements seem to make sense for low level civil violations that have minimal natural
resource impact.

Between July 1, 2005, and June 30, 2006, Florida Fish and Wildlife Conservation Commission
officers issued 171 summary settlements (totaling $22,275) for sanctuary violations in the
Florida Keys. In that same time period, only one NOVA ($10,000) for a sanctuary violation in
the Florida Keys was issued. The summary settlement violations ranged from vessel groundings
(causing limited damage to sea grass) to fishing in special protected areas of the sanctuary. The
funds are used for various site-specific management activities including enforcement, buoy
maintenance, and vessel maintenance.

There were three summary settlements issued during FY
2007 for the Monterey Bay sanctuary, while none were            Figure 8. Summary Settlement
issued during this time period for the Hawaiian Islands                   Schedule for Monterey Bay
Humpback Whale sanctuary. Sanctuary officials believe the                 National Marine Sanctuary
low number was due, in part, to inadequate current
summary schedules. The Hawaiian Humpback Whale                                                    Penalty
                                                                          Violation
                                                                                                  Amount
sanctuary only allows summary settlement action for one
                                                                Discharging or depositing,
specific violation involving the discharge or deposit of fuel
                                                                from within or from beyond
or oil from recreational vehicles in the sanctuary ($100        the boundary of the
fine). The current schedule for Monterey Bay only allows        sanctuary, any non-exempt
summary settlement action for four specific violations with     material or matter:
fine amounts that Monterey Bay sanctuary and law                           Fuel, oil, etc, from
enforcement officials believe are too low to deter future                                          $100
                                                                          recreational vessels
violations (see figure 8). Other violations that they believe
                                                                                        Trash      $100
should be covered under its summary settlement schedule
authority include (1) aircraft disturbance of sea birds and                     Raw material
marine mammals, (2) unauthorized or improper jade                           (unprocessed and       $100
                                                                              not hazardous)
collection, and (3) the removal, possession, or damage of
historical or cultural resources. The Monterey Bay summary      Operating motorized
settlement schedule sets a fine of only $100 for depositing     personal water craft in an
                                                                                                   $500
                                                                illegal zone within the
trash in the sanctuary. By contrast, the 2005 National Park     sanctuary
Service Bail Forfeiture Schedule sets a $200 fine for
polluting or contaminating national park waters.                Source: NOAA Southwest Region
Discharging oil from recreational vessels yields a $100 fine    Summary Settlement Schedule, May 29,
under the Monterey Bay summary settlement schedule, but         2007
the state of California has a $325 fine for discharging oil
into state waters.




                                               22
U.S. Department of Commerce                                                 Final Report IPE-18591
Office of Inspector General                                                          February 2008

Overall, summary settlement authority can broaden sanctuary enforcement response options
within the sanctuary system, resolve minor violations efficiently, and free up OLE and GCEL
resources to focus on more complex cases. The creation of a summary settlement schedule for all
sanctuaries has been on GCEL’s agenda for the past several years. During our review, GCEL
officials informed us that they hope to complete this effort by the end of calendar year 2007. At
the time of this writing, this effort was not completed. We encourage GCEL to work
collaboratively with the sanctuary site superintendent, regional director, and NMSP director to
create summary settlement schedules for the remaining sanctuary sites and update the existing
sanctuary summary settlement schedules (including the type of violations and penalty amounts),
as appropriate.

JEA partners receive limited sanctuary-related training. We found that training provided to JEA
partners on sanctuary regulations is minimal. State enforcement officers informed us that
sanctuary-related training is ad hoc and mainly consists of on-the-job training (e.g.,
accompanying a biologist on a grounding assessment). Training state and territorial officers on
primary federal laws they are charged with enforcing, including the National Marine Sanctuaries
Act, is important because without the training, these state resources are not being maximized.

GCEL authorities told us both OLE and GCEL conduct a training session for the state or
territorial enforcement officers when a new JEA is signed, with GCEL focusing on legal issues
and OLE focusing on operations. However, neither entity could provide us with specific
examples of what kind of sanctuary training is provided at these sessions. Regulations
concerning sanctuaries are site-specific and focused training is required for each sanctuary.
Some areas where sanctuaries are located, such as the Florida Keys, have high employee
turnover rates, so offering this type of training only at the beginning of a JEA partnership is
probably not sufficient. NMSP should work with OLE and GCEL to put in place a training
program that would be beneficial to the state and territorial enforcement officers who are charged
with enforcing sanctuary regulations.

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NMFS and NOS Assistant Administrators and the NOAA General Counsel, take the
necessary actions to ensure that:

   The OLE director requires the operations plan under each relevant joint enforcement
    agreement to include a detailed description of the type of sanctuary work to be performed by
    state and territorial government partners (including designated man hours) and that NMSP
    receives a regular report of the actions taken by the partners under the agreement.

   The NMSP director incorporates the activities outlined under the Memorandum of
    Agreement between it and the state of Florida under OLE’s joint enforcement agreement
    with Florida.




                                               23
U.S. Department of Commerce                                                 Final Report IPE-18591
Office of Inspector General                                                          February 2008

   The assistant general counsel for GCEL creates summary settlement schedules for the
    remaining sanctuary sites and updates the existing sanctuary summary settlement schedules
    (including the type of violations and penalty amounts), as appropriate.

   The NMSP director, the OLE director, and the assistant general counsel for GCEL work
    together to provide relevant joint enforcement agreement partners with regular agent and
    officer training on sanctuary regulations.




In its written response to our draft report, NOAA generally concurred with all four
recommendations. With regard to our recommendation that OLE amend the operations plan
under each relevant joint enforcement agreement to include a detailed description of the type of
sanctuary work to be performed by state and territorial government partners, the response stated
that NOAA has already begun to revise some plans with its partners as part of NOAA’s annual
review of each joint enforcement agreement. NOAA’s response cites the example used in our
draft report regarding the augmentation of the operations plan with the state of Georgia. NOAA
also concurred with our recommendation that NMSP should receive a regular report of the
actions taken by the partners under the agreements. NOAA’s actions will meet the intent of our
recommendations once fully implemented.

With regard to our recommendation that NMSP incorporate the enforcement activities outlined
under its Memorandum of Agreement with the state of Florida under OLE’s joint enforcement
agreement with Florida, the response stated that implementation of this recommendation should
be phased in over a three-year period. Specifically, it stated that the existing Memorandum of
Agreement should not be abandoned without development of a thoughtful, phased approach,
mutually agreed to by NMSP, OLE, and the state of Florida, with milestones for direct and
quantifiable enforcement of the Florida Keys National Marine Sanctuary regulations. The
response also noted that funding the project through joint enforcement agreements will align
OLE more closely with the sanctuary program and enhance NOAA’s mission support overall.
We agree. As such, NOAA’s planned action will meet the intent of our recommendation once
implemented.

With regard to GCEL updating existing summary settlement schedules and creating summary
settlement schedules for the remaining sanctuary sites, NOAA’s response stated that GCEL has
been working over the course of the last year to develop an updated and expanded summary
settlement schedule to cover the 13 sanctuaries. In addition, NOAA noted that on January 4,
2008, a draft schedule was circulated to GCEL enforcement attorneys nationwide, who are
currently reviewing and commenting on the draft. After this internal review, GCEL anticipates
providing the draft national summary settlement schedule to OLE and NMSP for review and
comment by late January 2008 and publishing the new schedules by March 2008. NOAA’s
action will meet the intent of our recommendation once implemented.

With regard to providing relevant training on sanctuary regulations to joint enforcement
agreement partners, NOAA’s response stated that NMSP, OLE, and GCEL will work together to


                                               24
U.S. Department of Commerce                                                    Final Report IPE-18591
Office of Inspector General                                                             February 2008

develop briefing materials and job aids for use on the water, and hold training workshops, as
resources become available. The response also noted that NMSP believes it would be important
to also extend this training effort to NOAA’s Office of General Counsel for Natural Resources,
U.S. Coast Guard, and other partners involved in enforcing sanctuary regulations. We agree.
Once implemented, NOAA’s planned actions will meet the intent of our recommendation.


C. NMSP needs more enforcement data to help better manage sanctuaries

With the exception of the Florida Keys National Marine Sanctuary, the sanctuary program is not
routinely notified of the nature and scope of ongoing or closed enforcement cases. We also found
that OLE agents are not recording all of the violations that occur in sanctuaries. In addition, the
sanctuary program is generally not notified in a timely manner when funds collected for
violations are deposited into one of its civil penalty accounts. While we understand that neither
OLE nor GCEL can provide sanctuary officials with law enforcement sensitive information (e.g.,
name of entity under investigation), we believe that more information should be shared to enable
NMSP to better manage sanctuary resources.

Sanctuary case information is not routinely provided to NMSP. In December 2006, OLE and
GCEL officials agreed to update NMSP on a regular basis on ongoing and closed cases involving
violations in the sanctuaries. Since then, the OLE headquarters sanctuary point-of-contact
generally meets with headquarters sanctuary officials on a weekly basis, and a GCEL official
tries to meet with headquarters sanctuary officials on a monthly basis to update them on specific
cases and issues. These meetings have helped strengthen the cooperation between the three
offices, but NMSP headquarters officials responsible for monitoring sanctuary enforcement say
they are still unsure of the scope of enforcement cases within the sanctuary system.
GCEL does not routinely provide the sanctuary program with comprehensive updates on ongoing
and closed cases. Although GCEL provided sanctuary program officials a summary of sanctuary
cases in February 2007, it was incomplete. Specifically, the summary did not include all ongoing
cases nor did it include penalty information (e.g., dollar amount of fines) for all applicable cases.
In July 2007, GCEL provided another summary of sanctuary cases to the sanctuary program
which was more complete than the previous summary. But sanctuary officials still need to know
where in the sanctuary the violations are occurring (especially in the larger sites with marine
zones) so they can better target preventative enforcement efforts. Sanctuary officials said when
they see an increase of natural resource cases in a certain location, they try to determine if a
navigational marker is missing or if they need to do some targeted outreach to the local boat or
watercraft charter/rental agencies.

Again, we are not suggesting that law enforcement sensitive information regarding ongoing
cases should be shared with sanctuary program officials. But we believe that in the spirit of
cooperation, sharing of general case information on both ongoing and closed cases would be
helpful to sanctuary program officials. Specifically, unless sanctuary officials understand the
general nature and scope of violations in the sanctuary system, the sanctuary program cannot
adequately determine whether they need to increase or refocus their investment in enforcement
resources, including staff, vessels, or equipment. Without this information, sanctuary officials
don’t know what regulation areas need to be emphasized in public outreach. For example, if


                                                 25
U.S. Department of Commerce                                                    Final Report IPE-18591
Office of Inspector General                                                             February 2008

there are a number of spear fishing violations in a particular sanctuary, then sanctuary officials
can focus their outreach on the spear fishing regulation and diving community in that area.

OLE Does Not Track Non-Sanctuary Related Violations in the Sanctuaries. OLE tracks
sanctuary-specific violations but does not track nonsanctuary-related violations in sanctuaries,
although the latter information would also be helpful to sanctuary officials. This is mainly
because cases are currently categorized in OLE’s Law Enforcement Accessible Database System
(LEADS) by type of violation, not by geographic area. For example, a whale harassment case in
Stellwagen Bank would only be recorded in LEADS as a “marine mammal” violation although
the offense also occurred in a sanctuary. Information about this type of violation would be useful
to Stellwagen Bank sanctuary officials because of their current whale monitoring efforts.

LEADS, which was implemented in 2006, has subfields under the violations category to reflect
the location of an offense, but OLE does not require its agents and officers to report the location
of an offense. Based on our discussion with OLE officials regarding this issue, they now
acknowledge the benefits of capturing this type of data in the system. In order for the sanctuary
program to make the best management decisions, it needs to fully understand the nature and
scope of all marine resource violations that occur in the sanctuary system. As such, we
recommend that OLE require its agents and officers to mark the appropriate sanctuary field in
LEADS if a nonsanctuary-related violation occurs in a sanctuary.

NMSP is not notified of deposits to sanctuary civil penalty accounts. Checks or money orders
received for NOVAs or summary settlements involving violations of the sanctuary act are
forwarded to NOAA’s finance office via a lock box. For NOVAs, the transfer includes a memo
from GCEL designating the specific sanctuary account to credit the funds to. Payments for
summary settlements are transferred in a similar way by the relevant OLE regional office.
Neither GCEL nor OLE includes NMSP in this notification process. GCEL officials said it
would be a burden for GCEL staff to copy NMSP every time sanctuary civil penalties are
received and transferred. OLE, on the other hand, did not realize that NMSP was not notified and
agreed that NMSP should be informed of this transfer.

In FY 2006, $403,600 in sanctuary civil penalties was assessed and $96,369 was collected.13 In
FY 2007, $115,725 was assessed and $260,055 was collected. The monies were deposited into
the civil penalty accounts for the Channel Islands, Gulf of Farallones, Florida Keys, and
Monterey Bay sanctuaries. NMSP can run a collection report from NOAA’s financial system to
identify the deposits made in a particular sanctuary account by date, but it is also important to
know how much money GCEL or OLE received and transferred so that NMSP staff can
determine if any of the funds were misplaced or lost in the transfer or misallocated to a different
sanctuary. While we agree that producing a separate memo every time penalties are received and
transferred to NOAA Finance might be burdensome, we believe that GCEL and OLE should
include NMSP as an addressee on the memo to NOAA finance when transferring funds to the
sanctuary civil penalty accounts.



13
     Some settlement agreements allow for multiyear payments.



                                                        26
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NMFS and NOS Assistant Administrators and the General Counsel, take the necessary
actions to ensure that:

   The assistant general counsel for GCEL provides the sanctuary program with non-law
    enforcement sensitive information pertaining to ongoing and closed OLE cases (including
    the type of regulations violated, date and location of violations, and penalties assessed and
    collected).

   The OLE director requires its agents and officers to mark the appropriate sanctuary box in
    the Law Enforcement Accessible Database System when nonsanctuary-related cases occur in
    a sanctuary.

   The OLE director and the assistant general counsel for GCEL include the appropriate
    sanctuary officials as addressees on the memos to NOAA finance when transferring funds to
    sanctuary civil penalty accounts.




In its written response to our draft report, NOAA generally concurred with the three
recommendations in this section. With regard to our recommendation that GCEL provide the
sanctuary program with non-law enforcement sensitive information pertaining to ongoing and
closed OLE cases, the response stated that NOAA will implement a process with NMSP, OLE
and the Office of General Counsel (both GCEL and the General Counsel for Natural Resources)
to reconcile handling and management of case-related information. NOAA’s response noted that
these offices will work to establish protocols for the regular exchanges of information regarding
ongoing and closed cases in general. Once implemented, NOAA’s actions will meet the intent of
our recommendation.

As for our recommendation that the OLE Director require its agents and officers to mark the
appropriate sanctuary box in the Law Enforcement Accessible Database System when non-
sanctuary-related cases occur in a sanctuary, the response stated that OLE does require the
identification of the specific sanctuary in which an incident occurs in all relevant reporting, not
just in violations of National Marine Sanctuary Act cases. However, the response agreed that it is
critical for NMSP and each site to be aware of the full extent of resource violations occurring in
sanctuary waters in order to best direct outreach efforts to reach key user groups. Accordingly,
NOAA’s response stated that OLE will review its report review processes to increase compliance
and will investigate opportunities to institute mechanical requirements (i.e., use of mandatory
field for data entry) to better capture this information. Once implemented, NOAA’s proposed
actions will meet the intent of our recommendation.

Finally, with regard to our recommendation that OLE and GCEL include the appropriate
sanctuary officials as addressees on the memos to NOAA finance when transferring funds to


                                                 27
U.S. Department of Commerce                                               Final Report IPE-18591
Office of Inspector General                                                        February 2008

sanctuary civil penalty accounts, NOAA’s response stated that GCEL has revised its procedures
to copy NMSP on lockbox deposit memos in order to provide notification of payments on
Notices of Violation and Assessments. In addition, OLE’s procedures to document the receipt of
funds received for summary settlements involving violations of the National Marine Sanctuary
Act will be revised to require notification to the NMSP. NOAA’s action will meet the intent of
our recommendation once fully implemented.




                                              28
U.S. Department of Commerce                                                Final Report IPE-18591
Office of Inspector General                                                         February 2008


III. Management of the Sanctuary Program Has Significantly Improved, but Several
     Issues Require More Attention

Over the past four years, sanctuary program managers have implemented a number of program
improvements, including (1) creating a regional office structure, (2) mandating annual operating
plans for individual sanctuaries and regional offices, (3) developing consistent programmatic
performance measures, (4) requiring system-wide monitoring and sanctuary condition reports,
and (5) creating a headquarters-level position to manage operations, facilities, and assets. We
found that these improvements have already provided operational benefits, such as improved
coordination with regional agency counterparts, budget decisions that are more closely aligned
with sanctuary program goals, and scientific reports that provide a baseline of sanctuary
conditions throughout the system. We anticipate that these improvements will help the sanctuary
program continue to achieve its goals and objectives as the program matures. However, we found
the following two areas require more attention: the completion of management plan reviews and
budgeting for operating vessels, visitor facilities, and buoys.


A. The 5-year statutory requirement to complete management plan reviews has not been
   met, but additional resources are now helping to speed up the process

The National Marine Sanctuaries Act requires that a management plan be prepared for a
proposed national marine sanctuary, and the plan must be reviewed and updated, as necessary, at
least once every five years after designation. Each plan is drafted with significant public
participation and input and generally includes the following information:

      Terms of the proposed designation;
      Proposed mechanisms to coordinate existing activities by local, regulatory and
       management authorities within the area;
      Proposed program goals and objectives, management responsibilities, and strategies for
       managing sanctuary resources;
      Estimated annual sanctuary operating costs to the federal government; and,
      Proposed regulations within the sanctuary’s boundaries.

A management plan is also accompanied by an environmental impact statement and sanctuary
boundary maps, which together constitute a part of what collectively is referred to as a
sanctuary’s designation documents. Generally, management plans become final and effective
upon a sanctuary’s designation and are important tools that help sanctuary superintendents and
their staffs promote the site’s goals and establish objectives and priorities in areas such as
education and outreach, research, resources protection and restoration, and enforcement. As
noted above, the act requires that each plan be reviewed and updated as needed at least once
every 5 years.

Each of the system’s 13 marine sanctuaries and the marine national monument has its own
management plan review schedule, which is dictated by a site’s designation date and whether the
site’s staff and SAC are prepared to carry out this effort (see table 3).



                                               29
U.S. Department of Commerce                                                              Final Report IPE-18591
Office of Inspector General                                                                       February 2008

 Table 3. Status of Management Plan Reviews, As of February 5, 2008
 Sanctuary and Year of Previous Management         Start Date a                Review Status
 Plan
 Channel Islands (1983)                            June 11, 1999               In progress b
 Cordell Bank (1989)                               November 8, 2001            In progress c
 Fagatele Bay (1984)                               Starting First Review in 2008
 Florida Keys (1996)                               June 8, 2001                Completed – January 2008
 Flower Garden Banks (1991)                        September 7, 2006           In progress
 Gray’s Reef (1983)                                November 19, 1999           Completed – October 2006
 Gulf of the Farallones (1987)                     November 8, 2001            In progress c
                                                   First review completed in 2002
 Hawaiian Islands Humpback Whale (2002)
                                                   Starting Second Review in 2008
 Monterey Bay (1992)                               November 8, 2001            In progress c
 Olympic Coast (1994)                              Starting First Review in 2008
 Papahanaumokuakea (N/A)                           Creating original management plan in 2008
 Stellwagen Bank (1993)                            November 18, 1998           In progress
 Thunder Bay (1999)                                September 7, 2006           In progress
 Monitor (1983)                                    Starting First Review in 2008
 Sources: Federal Register, NMSP staff
 a
   A review begins with the publication of a notice of intent to review a sanctuary’s management plan in the
 Federal Register and ends with the publication of a notice of availability of the final management plan.
 b
   Channel Islands sanctuary anticipates completing its management plan review by January/February 2008.
 c
   Cordell Bank, Gulf of the Farallones, and Monterey Bay sanctuaries anticipate completing their management
 plan reviews in Spring 2008.


When we conducted our review, all but the Papahanaumokuakea Marine National Monument
had a management plan in place, but most of the sanctuaries had not updated their original
management plans in more than 10 years. This means that none of the sanctuaries was in
compliance with the act’s requirement that each site review and update its management plan at
least once every 5 years.14 However, as of February 5, 2008, seven sites were undergoing
management plan reviews.15 Reviews at the Fagatele Bay, Hawaiian Islands Humpback Whale,
Olympic Coast, and the Monitor sanctuaries are slated to begin in 2008. The
Papahanaumokuakea Marine National Monument was designated by presidential proclamation
on June 15, 2006, under the American Antiquities Act of 1906, as amended. A final management
plan was not issued upon designation because it did not undergo the designation process as
established under the National Marine Sanctuaries Act. However, the monument plans to issue
its first management plan in 2008.

Revising a management plan requires public meetings often in geographically dispersed areas to
identify resource management issues and define activities to carry out within the sanctuary.
Local sanctuary staff also work with its SAC to study sanctuary issues and develop targeted
action plans to meet the sanctuary’s objectives. Once a plan is completed by the site, in both
draft and final forms, it goes through NOAA management clearance that involves the


14
   When we conducted our review, only two sanctuaries had revised their original management plans—the Hawaiian
Islands Humpback Whale in 2002 and Gray’s Reef in 2006, but these revisions were not completed within the 5-
year requirement.
15
   The Florida Keys sanctuary completed the review of its original 1996 management plan on January 11, 2008.



                                                       30
U.S. Department of Commerce                                                               Final Report IPE-18591
Office of Inspector General                                                                        February 2008

concurrence of NMSP, NOS, NMFS, OGC, the Under Secretary for Oceans and Atmosphere,
and, if regulatory changes are proposed, the Secretary of Commerce.

As table 3 shows, several sites have been conducting their management plan reviews over a
period of a number of years. For example, Stellwagen Bank’s and Channel Islands’ management
plan reviews have been underway since November 1998 and June 1999, respectively.
Superintendents and staff at these sites attribute delays to a number of reasons, such as a change
in site leadership and staff, limited resources, redirecting staff to respond to a time sensitive
issue, deliberating with sanctuary partners on a plan’s content, negotiating with NMFS on fishing
regulations, and evaluating extensive public comments.16 We were also told that reviews were
delayed because some staff and SAC members did not have sufficient knowledge and training to
carry out a review and that staff and SAC members learned the process on-the-job. Therefore,
the next round of management plan reviews should be less time consuming.

Senior sanctuary program managers and staff at headquarters acknowledge that management
plan reviews should be completed in less time, but they emphasize the need to have broad public
participation in this effort. They note that each sanctuary has unique issues that are addressed
differently. Such issues include prohibiting anchoring in sea grass protection zones in the Gulf of
the Farallones, revising the definition of motorized personal watercraft in Monterey Bay,
restricting the type of spear fishing within Gray’s Reef, and strengthening discharge restrictions
for ships in the Channel Islands. It is also worth noting that some management plan reviews are
more complex to undertake than others are, which can be attributed to issues such as the
sanctuary’s size, location, types of resources protected, and the level of use.

Sanctuary program managers have recently taken a number of steps to improve the management
plan review process. In May 2007, sanctuary program headquarters office issued a set of
organizational performance measures, one of which calls for NMSP to complete six current
reviews by the end of calendar year 2008.17 Another measure states that by 2010, NMSP plans to
decrease the average length of time for completion of a management plan review to 36 months.
This schedule will be applied to sanctuaries which began reviews between 2006 and 2008. If
implemented, we believe that these measures will help improve the sanctuary program’s
management of individual sanctuary operations. Last year, sanctuary program headquarters staff
began tracking the status of management plan reviews, requesting monthly updates from site
superintendents on plan review progress. Staff from the regional and headquarters offices have
also traveled to individual sites to provide training to local staff and SAC members to educate
them on the review process before a site begins a review. Regional superintendents have
incorporated the completion of management plan reviews into each sanctuary superintendent’s
performance plan.



16
   If a management plan review calls for adopting fishing regulations, the appropriate fishery management council
must be given 120 calendar days to make recommendations and have the opportunity to create a draft proposal for
such regulations. The fishery management council may ask for and will typically be granted an extension during this
process.
17
   This measure does not apply to the current reviews at Thunder Bay and Flower Garden Banks sanctuaries.



                                                        31
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

Delays in plan implementation may affect a site’s budget planning and the promulgation of
regulations, thus possibly impacting sanctuary resources by not having additional resource
protections in place. Also, we noted that delays in completing reviews can result in diminished
public interest and increased dissatisfaction with the sanctuary planning and implementation
process. Several SAC members and sanctuary partners at some sites told us that they are
frustrated with the amount of time it has taken to review their site’s management plan. We
encourage the sanctuary program director to continue to actively oversee the management plan
review process and hold superintendents accountable for completing their reviews and revising
their plans promptly.

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NOS Assistant Administrator, take the necessary actions to ensure that:

   The NMSP director completes sanctuary management plan reviews promptly, consistent with
    the program’s performance measures and the requirements of the National Marine
    Sanctuaries Act.

   The NMSP director holds superintendents that have ongoing management plan reviews
    accountable for completing them within established timeframes.




In its written response to our draft report, NOAA concurred with both of the above
recommendations. NOAA said that it is already working to remedy the problems that previously
caused delays in completing management plan reviews so as to avoid them in the future.
However, it cautioned that circumstances beyond its control, such as the availability of funding
and staff resources, may still contribute to delays in the future. Also, NOAA stated that it would
be instituting agreements signed by the superintendents and others, which document work plans
for reviews, including timetables. Again, NOAA cautioned that circumstances beyond its
control, such as deliberations between NMSP and NMFS, may cause delays in the management
plan reviews. NOAA’s actions will meet the intent of our recommendation once implemented.
We request copies of the signed agreements with sanctuary superintendents (when applicable) as
part of NOAA’s action plan.


B. Funding shortfalls could hamper maintenance and operation of vessels, some visitor
   interpretative centers, and data buoys

Sanctuary program officials and external stakeholders told us that vessels, visitor centers, and
data buoys are necessary to implement different aspects of the sanctuary program’s mandates.
Vessels, for example, are needed for enforcement of sanctuary regulations and for monitoring
natural and cultural resources. Data buoys provide water quality data in sanctuary waters that
was described by many sanctuary and external researchers as critical to the sanctuary’s


                                                32
U.S. Department of Commerce                                                          Final Report IPE-18591
Office of Inspector General                                                                   February 2008

monitoring program. Visitor centers promote
public awareness and provide educational                “A major issue is our inability to confirm outyear
information to the public. However, in FY 2008          obligations for service maintenance of the buoys.”
funding shortfalls could hamper maintenance             -- Senior NMSP headquarters official
and operation of certain vessels, visitor               “Each site scrambles to find money within their own
interpretative centers, and data buoys at some          base budget to operate and to maintain facilities.”
sanctuaries.                                            -- Senior NMSP official

The forecasting and coverage of maintenance
and operational costs for outyears seems to be a problem in the sanctuary program for two
reasons. First, the sanctuary program has received recent Congressional earmarks for vessels and
visitor centers -- beneficial but unplanned funding. However, after the initial purchase or
construction is completed, the earmark does not provide operating funds. Second, in 2004 and
2005, the sanctuary program invested in 35 data buoys to obtain water quality data for west coast
sites. The program made the decision to become involved in these buoy operations, managed by
university and private organizations, without a backup plan to continue support in future years.
With reduced NMSP budgets since 2005, money for buoy maintenance and operations is
dwindling.

In 2007, as part of the annual operating budget process for FY 2008, the sanctuary program for
the first time required its managers to forecast infrastructure costs, such as fuel and maintenance
costs for vessels, and recurring costs at visitor centers, in their annual operating plans. While this
is a positive start, the sanctuary program must continue to more effectively plan for these costs as
part of its annual operating plan and budget
process. This past year, the program also          Table 4. Sanctuary Vessels, Visitor Centers, and
developed an automated program to                             Permanent Exhibits
estimate costs for vessel maintenance and                                 Number
                                                                                       Visitor
                                                             Site            of                  Exhibits
operations, which includes prior year                                                 Centers
                                                                           Vessels
maintenance, fuel, and crew costs. It is
                                                   Channel Islands           2*                     X
being piloted at the Stellwagen Bank and the Cordell Bank                     1                     X
Florida Keys sanctuaries. While this should Fagatele Bay                     1*          X          X
provide the sanctuary program with better          Florida Keys              26          X
information about prior year costs and             Flower Garden Banks       1*                     X
improve its vessel operations and                  Gray’s Reef                2                     X
maintenance budget forecasting, the five           Gulf of the Farallones     1          X          X
new vessels will further strain tight budgets Hawaiian Islands
in FY 2008.                                                                  2*          X          X
                                                   Humpback Whale
                                                  Monterey Bay                  2           X           X
Vessels. Most sanctuaries have not yet had        Olympic Coast                 2           X
to remove vessels from operation or reduce        Papahanaumokuakea            0*           X
days at sea by eliminating contracts for          Stellwagen Bank               3                       X
crew. However, in 2008, five new vessels,         Thunder Bay                   1           X           X
funded as 2006 Congressional earmarks, are        U.S.S. Monitor                0           X           X
expected to become operational (see table         Totals                       44           9           11
4). We heard from several sanctuary               Source: NMSP
officials and site managers that when these       *Earmarks for vessel received in 2006




                                                   33
U.S. Department of Commerce                                                                 Final Report IPE-18591
Office of Inspector General                                                                          February 2008

vessels come on line, several sites will need to (1) use funds previously planned for program
activities at both headquarters and certain sites to cover some operations and maintenance for
certain vessels and/or (2) reduce the number of days at sea for certain new or existing vessels.

Visitor Centers. Due to decreases in Operations, Research, and Facilities (ORF) funding and/or
the lack of commensurate increases to ORF budgets for operations and maintenance, hours of
operation for some visitor facilities have been decreased, and other sites are considering similar
action. However, we heard from several site managers that closing a visitor center for a few days
a week will not save the program much money, since the utilities often continue to run,
especially with live exhibits, and many centers are staffed by volunteers, not paid staff. While
user fees might seem like a reasonable revenue source to help fund the operation of visitor
centers, the sanctuary program does not generally seek or receive payments or user fees from
partners or users of sanctuaries’ products or services. Although not expressly prohibited, senior
sanctuary officials told us that they believe the act does not permit the collection of user fees to
recover costs for research, public use, or educational permits.18

Likewise, the sanctuary program does not collect user or entrance fees to defray operating costs
for visitor centers, although donation boxes are sometimes placed in key locations in the centers.
The sanctuary program generally staffs the facilities with sanctuary staff, volunteers, or National
Park Service interns. At the Gulf of the Farallones sanctuary, a local association pays for the
visitor center staff. Furthermore, the National Marine Sanctuary Foundation actively supports
visitor center exhibits and the development of new independent local associations affiliated with
the individual sanctuaries19 and is exploring the establishment of local chapters of the National
Marine Sanctuary Foundation to promote more local fundraising and volunteerism.

While opinions are mixed, numerous NOS and NMSP officials indicated that they generally
oppose user fee collections for sanctuary visitor centers because they said (1) visitors would be
discouraged from visiting the centers and NOAA would lose the opportunity to educate the
public about marine ecosystems and maritime heritage, and (2) the transactional costs would
exceed the returns unless the entrance fees were prohibitively high. At the U.S.S. Monitor
sanctuary via a public-private partnership, the private museum partner collects entrance fees and
uses a portion of those fees to support U.S.S. Monitor exhibits and education programs within
the museum. With the notable exception of the U.S.S. Monitor arrangement, sanctuary program
visitor facilities generally do not defray their own operational and maintenance costs and may be
missing out on opportunities to do so. The sanctuary program should conduct a review of the
various funding alternatives and determine the most effective ways to support visitor centers,
focusing on partnerships with local associations but not ruling out seeking statutory authority to
collect and use appropriate user fees.

18
   NMSP is specifically authorized to collect fees for special use permits for commercial enterprises. In rare cases,
such as for flights over West Coast sanctuaries for filmmaking and for laying fiber optic cable at the Stellwagen
Bank and Olympic Coast sanctuaries, NMSP has determined fair market value for the use of the sanctuary and
charged the commercial enterprises for such usage as part of the special use permit.
19
   The National Marine Sanctuary Foundation assists with the development of local associations at the Thunder Bay
and the Hawaiian Humpback Whale sanctuaries. It has also helped to fund exhibits to promote sanctuaries, for
example, at the New England Aquarium in Boston (the Stellwagen Bank sanctuary), the Mariners Museum in
Newport News, Virginia (the USS Monitor sanctuary), and the Florida Keys Eco-Discovery Center.



                                                         34
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

Data buoys. The sanctuary program invested in 35 west coast data buoys in 2004 and 2005 to
obtain water quality data for west coast sites. The sanctuary program currently pays about
$25,000 per year to several university and other local partners to help maintain and sometimes
augment partners’ existing buoy arrays. But as one headquarters official told us, “[n]ow this
extra money is not in the system to maintain [the buoys].” Although sanctuary sites on the west
coast have not yet decreased funding to local organizations or universities working to maintain
data buoys, we heard from several sanctuary managers that they cannot tell their partners
involved in buoy activities that funds will be available to continue the partnerships in the future
because of the lack of confirmed funding, and that this uncertainty negatively affects the
partnership. We heard from several sanctuary officials and managers that it is possible that the
sanctuary program will not be able to meet its commitments with respect to buoy maintenance in
FYs 2008 and 2009.

We recommend that the sanctuary program develop a strategy and a mechanism to better
estimate and identify resources to cover lifecycle maintenance and operational costs for existing
or proposed sanctuary vessels, visitor centers, or data buoys.

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NOS Assistant Administrator, take the necessary actions to ensure that:

   The NMSP director develops a strategy and a mechanism to estimate and identify resources
    to cover lifecycle maintenance and operational costs for existing or proposed sanctuary
    vessels, visitor centers, and data buoys. New vessels, facilities, or buoys should not be
    acquired or undertaken without identification of adequate resources to cover the outyear
    costs.

   The NMSP director conducts a review of viable alternatives and identifies the most effective
    and appropriate ways to (1) support visitor centers, including seeking statutory authority to
    collect and use entrance or user fees, and partnering with local associations that could
    support, raise funds, and promote volunteerism for the sanctuary visitor centers, and (2) pay
    for the operating and maintenance costs for sanctuary vessels and data buoys.




In its response to our draft report, NOAA stated that progress has already been made with these
two recommendations – NMSP has produced several documents that estimate out-year costs for
operations and maintenance (O&M) for small boats and facilities. NOAA cautioned that
although NMSP needs to be fully aware of the long-term implications of its investments,
“resolution of this problem remains outside NOAA's control if procurement, acquisition, and
construction funds continue to be earmarked to build without commensurate increases in
operations, research, and facilities funding to operate or maintain vessels and facilities.” In
addition, NOAA noted that NMSP is currently engaged in the development of site and regional
master plans for facilities that further specify O&M projections and recently piloted an


                                                35
U.S. Department of Commerce                                                Final Report IPE-18591
Office of Inspector General                                                         February 2008

automated system to better account for vessels maintenance, fuel, and crew costs. With regard to
data buoys, NOAA agreed that long-term operational costs should be factored into decisions to
acquire them in the future and that it should employ methods to minimize such costs. Once
implemented, NOAA’s actions and planned actions will meet the intent of our recommendation.




                                               36
U.S. Department of Commerce                                                 Final Report IPE-18591
Office of Inspector General                                                          February 2008

IV. NMSP Collaborates with Many Partners, but Stronger Coordination is Warranted in
    Some Cases

The sanctuaries actively collaborate with partners, such as local schools; user groups; other
federal agencies; state, territorial, and local governments; universities; and other non-
governmental organizations. By including members representing a wide range of program
stakeholders and by building strong foundations for public support and engagement, the
sanctuary advisory councils serve as effective forums to promote collaboration. Sanctuary sites
also have active outreach and education programs to promote public awareness of marine
resources.

NMSP also collaborates with many of its partners to conduct research within the sanctuaries,
monitor the resources, and provide data needed by the sanctuary sites to manage sanctuary
resources. However, we found that efforts to publicize certain key sanctuary research results
could be improved. In addition to improving its research dissemination, we heard from many
stakeholders that the sanctuary program’s relationship with NMFS, although improving in some
regions, still needs work. In cases where the sanctuary program proposes to regulate fishing
within a sanctuary’s boundaries, there is often controversy between NMSP, NMFS, and the
fishery management councils. NOS, NMSP and NMFS leadership should develop more effective
ways to improve their working relationships at sanctuary sites.


A. Most sanctuary sites have active public outreach and education programs

Every sanctuary site has outreach and education activities, which are generally handled by one or
more education coordinators and/or specialists with some assistance from SAC members and
volunteers. We found that education and outreach employees, who have backgrounds in
education or marine science and receive communications training, actively promote the national
marine sanctuary system, employing online and print media, visitor centers, permanent exhibits,
and an area’s maritime heritage.

Efforts by education and outreach employees promote awareness of marine sanctuaries.
Education and outreach staff at sanctuary sites use a number of tools to promote sanctuary
awareness, including the sanctuary program’s Web site, which has links to related individual
sanctuary sites. These links provide information about the science and research, education,
resource protection, maritime heritage activities (if applicable), management issues, regulatory
information, and news and events at each sanctuary. In addition, sanctuary education and
outreach employees issue press releases and contribute articles to local newspapers and other
publications. Some sites, such as the Stellwagen Bank and Gulf of the Farallones sanctuaries,
print their own newsletters for target audiences. At the Cordell Bank sanctuary, the education
specialist discusses sanctuary issues and interviews knowledgeable guests on a monthly local
public radio program called Ocean Currents. The Florida Keys sanctuary hosts a local public
television program, Waterways, with a similar format. Shows are archived as multimedia files on
sanctuary Web sites and are available for download.




                                               37
U.S. Department of Commerce                                                    Final Report IPE-18591
Office of Inspector General                                                             February 2008

Sanctuary education and outreach staff also produce brochures and informational literature for
public dissemination. At the Florida Keys sanctuary, local tourist maps contain sanctuary
information and regulations. The Georgia Coastal Resources Division’s annual sport fishing
regulations handbook includes Gray’s Reef sanctuary rules and regulations. The Alpena,
Michigan, convention and visitor’s bureau tourist brochure features information about the
Thunder Bay sanctuary in a four-page insert. Sanctuary employees also attend local festivals and
public events sponsored by the local sanctuary or external sponsors to pass out information to
and interact with the public. Recent events include Thunder Bay sanctuary’s Great Lakes
Maritime Fest, the annual Ocean Film Festival sponsored by the Gray’s Reef sanctuary, and the
first annual NOAA Ocean Discovery Day, which was sponsored by the Flower Garden Banks
sanctuary and NMFS. Sanctuary staff and volunteers also regularly distribute sanctuary literature
at boat docks, harbors, local businesses, or on the water to educate the public about permissible
activities within some sanctuary’s boundaries.

Site education employees also sponsor teacher and student workshops. For example, the Flower
Garden Banks sanctuary sponsors a well-attended annual summer teacher workshop that mixes
classroom instruction with on-site dives to the sanctuary’s coral reefs. Teachers can share their
experiences with their students as part of their lesson plans. In addition, several sites, including
Thunder Bay, have for the past several years sponsored a high school student competition where
teams build models of underwater remotely operated vehicles (similar to the large ones used for
research and exploration within the sanctuaries) that compete against each other. These
competitions are designed to teach students teamwork and critical thinking skills while at the
same time instructing about the sanctuary.

We also found that most sanctuary education coordinators are developing or have developed
educational lesson plans and programs that adhere to relevant national or state education
standards and are formulated with the help of local partners. Employees at the West Coast
sanctuaries have promoted awareness through their Long-term Monitoring Program and
Experiential Training for Students (LiMPETS) network. Program participants collect beach
environmental data that is entered into an online database and used by scientists in their
sanctuary-based research. Finally in a separate effort to reach out to Spanish-speaking audiences,
the Monterey Bay sanctuary staff created an outreach program called MERITO (Multicultural
Education for Resource Issues Threatening Oceans) that is designed to raise awareness of
sanctuary issues and threats to the marine environment among local Spanish-speaking residents.
This initiative was recently expanded to the Channel Islands sanctuary, and the sanctuary system
continues to pursue program-wide expansion.

Sanctuary sites raise awareness by promoting maritime heritage. In addition to raising awareness
of a sanctuary’s natural resources, we found that many sites actively promote the maritime
heritage of local coastal communities to raise public awareness of the sanctuary’s related
resources. This includes not only identifying and promoting shipwrecks found within sanctuaries
but also recounting the history of local fishing activities. In the Pacific Islands Region, maritime
heritage staff have conducted a number of projects working closely with the National Park
Service, Naval Historical Center, and the University of Hawaii at Manoa. These include research
on the Japanese midget submarine in Pearl Harbor, historic naval aviation surveys, and local
maritime heritage symposia, among others. The Channel Islands sanctuary has developed a



                                                 38
U.S. Department of Commerce                                                    Final Report IPE-18591
Office of Inspector General                                                             February 2008

comprehensive, online database of shipwrecks located within         Figure 9. Sanctuary Advisory
the five West Coast sanctuaries. The Florida Keys and                         Council Member
Stellwagen Bank sanctuaries have also undertaken efforts to                   Constituencies:
raise awareness about shipwrecks and underwater cultural               Agriculture
resources, with the former promoting a “shipwreck trail” within        Business
its boundaries. At Gray’s Reef sanctuary, the staff is                 Commercial fishing
developing a program with the sanctuary’s partners to recount          Conservation & Environment
the maritime cultural heritage of African-American                     Diving
                                                                       Education and outreach
communities along the Georgia coast to generate African-               Maritime activity
Americans’ interest in the sanctuary.                                  Maritime heritage
                                                                       Recreational activities
Sanctuary advisory councils are broadly representative and             Recreational fishing
build strong foundations for public support and engagement.            Research
                                                                       Resource protection
Sanctuary advisory council members make recommendations to             Tourism
superintendents on sanctuary management, provide valuable
input during a site’s management plan review, and support              Source: NMSP
sanctuary activities in many ways. While the composition of a
council is left to the discretion of the sanctuary superintendent, most councils have members
representing diverse interests – from business and conservation to research, tourism, and the
fishing industry (see figure 9). Councils also have at-large members representing localities near
the sanctuary as well as representatives from federal, state, tribal, and local government entities
serving in an ex-officio (non-voting) capacity.

We found the council members we interviewed were generally supportive of the sanctuaries.
Members said they actively promote sanctuary matters to their constituencies, provide input from
their constituencies to the advisory councils and the superintendent, and work to obtain their
respective constituencies’ buy-in of sanctuary proposals and projects. This is particularly
important when working with the recreational and commercial fishing communities, agricultural
interests, and commercial salvers, who have not always been supportive of the sanctuaries’
establishment or regulatory activities.

Sanctuary volunteers help augment existing sanctuary resources. According to the program’s
2005-2006 State of the Sanctuaries Report, volunteers contribute more than 100,000 hours of
service annually to the sanctuaries. They monitor sanctuary resources, staff visitor centers, and
provide enforcement outreach at local businesses and on sanctuary waters under the direction of
sanctuary staff. Volunteers participate in organized programs or simply help out as needed. At
the Florida Keys and Monterey Bay sanctuaries, volunteers participate in a program called
TeamOCEAN, providing on-site information on sanctuary regulations, uses, and resources to
boaters and other sanctuary users. At the Gulf of the Farallones sanctuary, BeachWatch
volunteers monitor and collect information on beach conditions and were instrumental in helping
the staff locate a previously uncharted shipwreck that had been leaking fuel oil intermittently for
several years. At the Stellwagen Bank sanctuary, volunteers serve on whale watching boats to
educate the public on whale behavior and protection within the sanctuary. And at the Fagatele
Bay sanctuary, volunteers constructed a hiking trail linking local Samoan villages with the
sanctuary, which until then had been relatively inaccessible by land.




                                                 39
U.S. Department of Commerce                                                    Final Report IPE-18591
Office of Inspector General                                                             February 2008

B. Efforts to publicize research results to key audiences could be improved

Despite all of the collaborative work described in the previous section, significant sanctuary
activities and research results do not always reach key audiences. Education and outreach staff
said they try to work with researchers to draft summaries of the results that are suitable for public
dissemination. However, we were told that researchers oftentimes do not have time to help
formulate summaries of their results given their other research priorities. Several research and
education and outreach employees, including sanctuary program managers, acknowledged that
they could do a better job translating scientific research results for the public and other
researchers.

For example, research results show that the populations of spiny lobster and certain species of
grouper and snapper increased after the establishment of no-take marine reserves in the Dry
Tortugas and the Western Sambo Ecological Reserve, both within the Florida Keys sanctuary.
Other sanctuaries considering establishing such no-take zones could benefit from this
information. The research results were publicized locally to the Florida Keys staff and its
advisory council and published in a scientific journal, but they were not disseminated to the
public or key constituencies, such as fishery management councils, NMFS, and other advisory
councils throughout the marine sanctuary system.

Communicating research and monitoring results to the public and the scientific community can
increase general awareness of the sanctuary, help promote conservation of sanctuary resources,
and encourage further sanctuary-related research. In addition, publicizing significant successes or
concerns in one sanctuary to key audiences throughout the system can promote greater
understanding of the sanctuary’s resource protection efforts system-wide.

Recommendation:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NOS Assistant Administrator, take the necessary actions to ensure that:

The NMSP director instructs the science and research employees at sanctuary sites to work with
education and outreach staff to (1) more effectively communicate significant sanctuary research
results to key local constituencies and (2) publicize significant research results that might apply
to other sanctuaries and key constituencies throughout the national sanctuary system.




In its response to our draft report, NOAA concurred with this recommendation, but suggested
that the language be modified to require science and research staff to work with education and
outreach employees in publicizing significant research results. NOAA felt that it would be
incumbent upon science and research employees to determine what constitutes significant
research results and then convey that information to the education and outreach staff for
dissemination. This would also require that researchers prioritize education and outreach of their
research within their own work plans and requirements. We concur and have modified the


                                                 40
U.S. Department of Commerce                                                                 Final Report IPE-18591
Office of Inspector General                                                                          February 2008

recommendation accordingly for the final report. NOAA’s actions will meet the intent of our
recommendation once implemented.


C. Sanctuaries actively leverage other resources to do research and bottom mapping, but
   more analysis and collaborative actions could increase resource protection

The National Marine Sanctuaries Act’s 2000 reauthorization identifies as a purpose of the
sanctuary program “to support, promote, and coordinate scientific research on, and long-term
monitoring of, the resources” in national marine sanctuaries. The sanctuary program’s partners
are instrumental to doing much of the research, monitoring the resources, and providing data
needed by the sanctuary sites to manage sanctuary resources. The sanctuary program is
improving its overall research and monitoring capacities and is working to strengthen its
infrastructure by (1) providing additional scientific staffing at sanctuaries and at headquarters,
(2) engaging in strategic planning for science-related issues, and (3) improving its information
management.

                                                                  Additionally, site-specific System Wide
 Figure 10. System Wide Monitoring (SWiM) and
            Condition Reports
                                                                  Monitoring (SWiM) reports, mandated by the
                                                                  sanctuary program senior managers since
 System Wide Monitoring (SWiM), the program’s                     2004, have enabled the sanctuary program to
 monitoring framework, can be applied to any marine               work more strategically with its many partners
 sanctuary. It integrates information and data from
 partner monitoring efforts. The program asks each
                                                                  to better prioritize the research needed to
 sanctuary to answer 17 questions that relate to the              characterize habitats and do long-term
 quality of water, habitats, and living resources and to          monitoring of resources. Although more work
 maritime heritage resources. SWiM assists sanctuary              is needed, now the program can work with its
 staff to identify priority threats and develop responses         partners to systematically monitor the quality
 to those threats. SWiM reports are complete at nine
 sites, and are in progress at the other sites. These will
                                                                  of a priority set of resources, and determine
 be done every five years.                                        research needs and opportunities. The newly
                                                                  developed condition reports on each sanctuary
 Condition Reports, based on SWiM reports, are                    provide another venue to measure and
 summaries of the status of resources at each
 sanctuary, rated on a color-coded scale from good to
                                                                  publicize the results of site-specific
 poor. The ratings, including trends, reflect the                 management of sanctuary ecosystems. These
 interpretation of sanctuary staff and outside experts,           reports provide information that partners can
 but final ratings are determined by sanctuary staff.             use to plan and conduct their research in
 Two sites have prepared and distributed a Condition              sanctuaries, and identify opportunities for the
 Report, and the rest of the sites are working on their
 reports. Sites will issue these reports every two years.
                                                                  sanctuary program to leverage partners’
                                                                  resources and knowledge.
 Source: NMSP, A Monitoring Framework for the
 National Marine Sanctuary System, 2004            We found that the sanctuary program’s
                                                   decision in the 1990s to better fund and staff
                                                   the Florida Keys and Monterey Bay
sanctuaries has enhanced integration and assessment of research data at those sites. However, at
most sites, much of the integration and analysis of data is done by partners. Several research
partners told us that overall the sanctuary program’s data analysis and modeling capabilities are
still in early development. The sanctuary program works closely with NOAA’s National Centers


                                                             41
U.S. Department of Commerce                                                           Final Report IPE-18591
Office of Inspector General                                                                    February 2008

for Coastal Ocean Science (NCCOS) to integrate and synthesize research data at, for example,
Stellwagen Bank, the Florida Keys, and the west coast sanctuaries. At some sanctuaries, models
of physical and biological processes have been developed to help better understand the dynamics
of the ecosystems. The sanctuary program should continue its work with its partners to prioritize
research issues and thoroughly analyze the data and information it gathers.
Table 5. Select NMSP Research and Monitoring Partners
Organization         Type         Selected Activities                   Sanctuary
                                  Developing research strategy,
National Centers for
                                  synthesizing data, researching
Coastal Ocean
                     Federal      coral reefs, sea grass, harmful       All sanctuary sites
Science –
                                  algae blooms, and marine
Commerce/NOAA
                                  biogeography, mapping sea floors
Office of Ocean                   Mapping shipwrecks, monitoring
Exploration and                   fish populations, assessing and
                                                                        Thunder Bay, Stellwagen Bank,
National Undersea    Federal      monitoring coral reef fish and
                                                                        Gray’s Reef, Florida Keys
Research Program                  deep sea corals
– Commerce/NOAA
                                                                        Florida Keys, Channel Islands, Gulf
Environmental
                      Federal        Monitoring water quality           of the Farallones, Cordell Bank,
Protection Agency
                                                                        Monterey Bay, Olympic Coast
National Park
                                     Operating interpretive centers,    Gulf of the Farallones, Cordell Bank,
Service and U.S.
                      Federal        maritime heritage research,        Florida Keys, Channel Islands,
Fish and Wildlife –
                                     supporting marine reserves science Papahanaumokuakea, Fagatele Bay
Interior
                                     Conducting scientific
Minerals
                                     investigations for over 30 years
Management Service Federal                                                Flower Garden Banks
                                     and long-term monitoring since
– Interior
                                     1988
South Florida                        Conducting restoration and
Ecosystem                            preservation activities in the South
                     State                                                Florida Keys
Restoration Task                     Florida ecosystem, including the
Force                                Everglades
Hawaii Department
                     State           Monitoring water quality           Humpback Whale
of Health
Moss Landing
                                     Studying biological oceanography
Marine Laboratories,
                     State           and the ecology of sea floor       Monterey Bay, Channel Islands
California State
                                     habitats
University
                                                                        Florida Keys, Gray’s Reef, Flower
Reef Environmental    Non-                                              Garden Banks, Channel Islands,
Education             governmental   Conducting fish censuses           Monterey Bay, Hawaiian Islands
Foundation            organization                                      Humpback Whale, Fagatele Bay,
                                                                        Olympic Coast, U.S.S. Monitor
                                     Monitoring beaches for dead
Beach Watch and
                      Volunteers     marine birds and mammals and oil Gulf of the Farallones, Monterey Bay
Beach Combers
                                     spills
Source: OIG

SIMoN integrates research done in Monterey Bay ecosystems. The Sanctuary Integrated
Monitoring Network (SIMoN) helps to coordinate monitoring in the sanctuary and provide key
information to sanctuary and other agency managers. It includes a Web-based system to help
organize and integrate research done in the Monterey Bay area, where more than 40 institutions


                                                     42
U.S. Department of Commerce                                                        Final Report IPE-18591
Office of Inspector General                                                                 February 2008

and organizations research various aspects of the Monterey Bay sanctuary. The SIMoN webpage
component integrates existing monitoring programs into a searchable database and makes this
information available to all interested parties. But the cost of the system has been relatively high:
NOAA and its private partners and the State of California have spent $6.4 million on the system
over the last three years. Nearly $3 million of this amount was provided by partners to conduct
monitoring within the sanctuary. NOAA’s annual cost to fully operate the SIMoN network is
about $450,000 for the central organizing team established at the Monterey Bay sanctuary;
NOAA estimates being able to expand SIMoN to the other four west coast sites at a cost of about
$125,000 per site per year.

The sanctuary program is currently expanding             Figure 11. Sanctuary Integrated Monitoring
SIMoN to the Gulf of the Farallones and Cordell                      Network (SIMoN)
Bank sanctuaries and plans to eventually extend the
                                                          SIMoN integrates information and puts it on
program to the whole sanctuary system. SIMoN             the Web, where it is available to the public.
appears suitable for the California sanctuaries due to SIMoN organizes research abstracts, graphs,
their scientific connectivity and the large number of    interactive maps, and photos. From 2004 –
research organizations working there. However,           2007,  NOAA, the David and Lucille Packard
there are numerous other federal, state, and             Foundation,  the state of California, and others
                                                         funded this $6.4 million dollar project. This
university marine research entities’ that have local,    price includes monitoring, ship time, outreach,
regional, national, or international marine data         education, administration, and staff to manage
integration Web sites, portals, and databases that       SIMoN.
collect and organize research or data regarding
                                                         Source: www.mbnms-simon.org
marine ecosystems, such as NOAA’s Coast Watch,
NOAA’s Coral Information System (CORIS), the
Environmental Protection Agency’s National Coastal Assessment Program and Environmental
Monitoring and Assessment Program (EMAP), the US Geological Service’s National Water-
Quality Assessment Program, OBIS-SEAMAP (Ocean Biogeographic Information System -
Spatial Ecological Analysis of Megavertebrate Populations) led by Duke University, and the
Census of Marine Life, managed by the University of Rhode Island. NOAA has done initial
reviews of these websites and found they were generally focused on single or narrow issues,
making them unsuitable for the comprehensive ecosystem information on the broad geographic
scale needed for a sanctuary. However, before rolling out SIMoN any further than the California
sanctuaries, the sanctuary program should closely re-examine these other Web data integration
efforts to see if they have expanded their scope or coverage, and coordinate with these and other
relevant entities, when appropriate, to avoid duplication of effort and resources and to minimize
additional costs.

The sanctuary program has a bottom mapping plan and has prioritized areas for bottom mapping.
NMSP uses ocean bottom mapping to better understand the characteristics of seafloors. Bottom
mapping obtains images of the sea floor using various techniques. Sonar acoustics, laser, or
satellites are used by partners to create medium or high resolution bottom maps that give a better
picture of each of the sanctuary sites. Several researchers within and outside of the sanctuary
program told us these maps provide the context for most other research. One researcher stated
that “managers cannot manage without this information.” Another scientist said, “It is critically
important to any research involving the bottom or any species that interacts with the bottom.”




                                                   43
U.S. Department of Commerce                                                        Final Report IPE-18591
Office of Inspector General                                                                 February 2008

NMFS also uses bottom mapping information to better determine which areas are essential fish
habitats.

We found that the sanctuary program actively participates in NOAA initiatives to map the ocean
and pursues opportunities to obtain bottom mapping support within NOAA, such as from
NCCOS, NOAA’s Office of Exploration, and NMFS’ Coral Reef Ecosystem Division in the
Pacific Region. The program takes advantage of NOAA ship assets when NOAA does mapping
missions with multi-disciplinary teams. The sanctuary program also works with the U.S.
Geological Service’s mapping programs in Flower Garden Banks, Channel Islands, and
Stellwagen sanctuaries. In addition, the Monterey Bay sanctuary uses bottom map data generated
by the Monterey Bay Aquarium Research Institute and the California State University in
Monterey Bay. The sanctuary program’s collaboration with its partners to use new mapping and
other technologies at sanctuary sites provides critical habitat data needed by NMSP and NMFS,
data essential in defining shipwreck and/or other maritime heritage resources, and opportunities
to fill in data gaps.

However, the sanctuary program and NMFS have not taken full advantage of the mapping
expertise in the NOAA Office of Coast Survey’s (OCS) Hydrographic Surveys division. This
division produces nautical charts of harbor entrances and harbor obstacles and collects acoustic
mapping data that could be used by NMSP and NMFS for bottom habitat maps. We learned that
                                                     the sanctuary program has tried to obtain this data,
                                                     sometimes successfully, but unless arrangements
 Figure 12. High Resolution Bathymetry               are made early enough, or unless the data is
                                                     obtained directly from the survey technician on
 This technology, developed by the Navy in the
 1960s, provides data critical for seafloor-oriented
                                                     the ship, it may sit for up to several years at OCS,
 projects. This data is used (1) in marine           inaccessible to the sanctuary program, due to data
 navigation to detect obstructions, (2) for seafloor processing backlogs there for nondivision
 composition characterization, and (3) to            priorities.
 determine the overall geology of the bottom. The
 higher the resolution is, the sharper the pictures
 are.
                                                      Since 2004 OCS has provided training to NMFS,
                                                      which has also acquired the technology necessary
 In 2003, the Navy and NOAA established a joint       to create detailed maps of bottom habitats. In
 High Resolution Bathymetry Release Panel to          2007, OCS created and staffed a new Integrated
 review NOAA applications for NOAA’s                  Ocean and Coastal Mapping Program charged
 collection and release of high resolution
 bathymetry data at depths greater than 50 meters.
                                                      with coordinating mapping efforts within NOAA.
 From 2000-2004, NMSP requested surveys in 22         But continued emphasis on earlier coordination of
 areas in the Olympic Coast sanctuary. All            mapping efforts, and sharing and standardizing the
 requests were approved by the panel except one,      data are warranted. We recommend that the
 but the data remained restricted from public         sanctuary program and NMFS work more closely
 release in all but two cases.
                                                      with OCS to acquire its existing survey data, when
 Source: Memorandum of Agreement between the          suitable, and actively coordinate with the new
 National Ocean Service and the U.S. Navy, NOS        Integrated Ocean and Coastal Mapping Program
 Agreement Code MOA 20-138-1035, 2003                 to more effectively coordinate efforts and
                                                      efficiently distribute map data.




                                                      44
U.S. Department of Commerce                                                         Final Report IPE-18591
Office of Inspector General                                                                  February 2008

Additionally, the U.S. Navy has its own classified high-resolution bathymetry data holdings of
areas of interest to NOAA, such as the continental shelf on the East Coast. These holdings can be
viewed by cleared NOAA personnel on a case-by-case basis at the Navy’s data holdings
locations, such as Bay St. Louis, Mississippi. This data, however, cannot be released to the
public, which makes it less useful to NOAA, which shares available data with its many research
partners.

In addition, NOAA officials told us that since 1985 NOAA must get Navy concurrence to collect
and release its own high resolution bathymetry data in several areas, now limited to the Pacific
Northwest and the Southeast. A U.S. Navy mapping official told us that NOAA can collect this
data with Navy concurrence using the High Resolution Bathymetry Release Panel (see
figure 12), but cannot release it to project partners. Interestingly, universities, private companies,
and state and local governments are not restricted from collecting or releasing data from the
NOAA-restricted areas in the Pacific Northwest and the Southeast unless there is a “NOAA
footprint on the project.” This means that since the 1985 prohibition, if NOAA is a project
partner, then the seafloor mapping data cannot be released to the public, but if the university or
private company does its work without NOAA involvement, then it is free to release the data.
This is inconsistent – it seems that the universities and private
                                                                        Figure 13. Map of the Stellwagen
companies should be restricted from collecting and releasing the                   Bank ocean floor
data in these two areas, similar to the NOAA restriction, or that
NOAA’s restriction should be either removed or modified.

For NMFS, this restriction on NOAA’s release of bottom
mapping data affects productive fishing areas, such as the
Charleston Bump, off the coasts of South Carolina and Georgia.
For the sanctuary program, this restriction impacts the Olympic
Coast sanctuary. Several stakeholders told us this restriction on
NOAA’s release of sea floor data has resulted in missed
partnering opportunities for the sanctuary program, for example,
with the state of Washington and several universities that offered
to share costs to collect bottom mapping data in the Olympic
Coast sanctuary.                                                        Source: NOAA Coastal Services Center


Technology and national security constraints have changed
considerably since NOAA last elevated this issue to Navy senior leadership in 2001. An
opportunity, however, might now exist for NOAA to share Navy maps and data with its partners
due to the recent declassification of Navy sonar bottom maps for the Arctic ice cap. A senior
sanctuary program official said “Perhaps we could be pursuing this more vigorously.” NOAA
should request that the Navy again review its high resolution bathymetry data classification
policy with respect to the Pacific Northwest and the Southeast, as well as the Navy’s other high
resolution bathymetry data holdings in other critical places, and determine whether such data can
be made available to NOAA and its partners. This would avoid duplication of U.S. government
efforts and reduce use of NOAA’s funds to collect data for bottom maps in areas already mapped
by the Navy.




                                                  45
U.S. Department of Commerce                                                   Final Report IPE-18591
Office of Inspector General                                                            February 2008

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NMFS and NOS Assistant Administrators, take the necessary actions to ensure that:

The NMSP director explores other Web-based data organization and integration efforts before
continuing with a SIMoN roll-out outside of California, to avoid duplication of effort and
resources and to minimize additional costs.

We recommend that the Under Secretary for Oceans and Atmosphere take the necessary
actions to ensure that:

NOAA requests that the U.S. Navy review its high resolution bathymetry data classification
policy for the Pacific Northwest, the Southeast, and other areas important to NOAA, such as the
continental shelf on the East Coast, and determine (1) whether the Navy’s high resolution
bathymetry data holdings can be made available to NOAA and its partners, and (2) whether
NOAA’s high resolution bathymetry data holdings can be made available to its partners.




In its response to our draft report, NOAA agreed to re-examine and build on existing web-based
information delivery capabilities to complement the expansion of SIMoN among west coast
marine sanctuaries, and beyond. NOAA also concurred with the recommendation to engage with
the U.S. Navy, and indicated that a preliminary meeting will be scheduled with the
Oceanographer of the Navy's office in January 2008 to renew the data acquisition, dissemination,
and availability discussions. Once implemented, NOAA’s planned actions will meet the intent of
our recommendations.


D. NMSP and the National Marine Fisheries Service sometimes collaborate well but need
   to further improve their working relationships

The sanctuary program staff and NMFS’ Office of Protected Resources staff coordinate well at
several sanctuaries on endangered species and marine mammal protection and management.
Also, NOAA’s deep coral activities appear to be coordinated between the sanctuary program,
NMFS, and other NOAA agencies. In addition, the sanctuary program and NMFS seem to work
well together on removal of marine debris and derelict gear. We found particularly strong
collaboration at the Gray’s Reef, Florida Keys, and Flower Garden Banks sanctuaries. The
sanctuary program, fishery management councils (FMCs), and NMFS staff generally agreed
during our interviews that several outcomes that resulted from their interactions during the joint
management plan review process at the Cordell Bank, Monterey, and Gulf of Farallones
sanctuaries were positive. For example, at Cordell Bank sanctuary, ground fish gear was
damaging the bank’s seafloor habitat, so sanctuary officials recommended a prohibition of
certain gear. But both NMSP and NMFS wanted this productive habitat regulated under their
own statute. This issue was ultimately elevated to NOAA’s senior leadership, who decided to



                                                46
U.S. Department of Commerce                                                                Final Report IPE-18591
Office of Inspector General                                                                         February 2008

protect Cordell Bank’s bottom via the MSA. In
this instance, although the MSA was used to                     Figure 14. Magnuson-Stevens Fisheries
                                                                           Conservation and Management
protect the resource, the sanctuary program was
                                                                           Act of 2006
able to encourage the Pacific FMC and NMFS to
take action to help protect this essential marine               Enacted in 1976, the original Magnuson Fisheries
habitat by raising this issue within NOAA. We                   Conservation and Management Act created eight
                                                                regional fishery management councils to advise
believe that is a positive outcome.
                                                                NMFS on fisheries management issues. A 1996
                                                                amendment called for increased attention to the
We found that NMSP and NMFS communication                       reduction of bycatch and the protection of
and coordination are improved when (1) fishery                  fisheries habitat. The 2006 reauthorization of the
management council members and/or NMFS staff                    act sets a firm deadline to end over-fishing in
                                                                America by 2011 by directing regional fishery
are on sanctuary advisory councils, (2) members
                                                                management councils to establish annual catch
of both fishery management and sanctuary                        quotas for certain species in federally-managed
advisory councils and staff participate in each                 fisheries.
other’s working groups and meetings, and (3)
                                                              Source: 16 U.S.C. 1851 et seq.
fishery management council members and NMFS
staff are involved in the development of sanctuary
management plans and reviews. Recently NMFS designated a headquarters liaison to the
sanctuary program; that person is supposed to coordinate with NMSP during the condition report
drafting process, which should help improve communication and coordination at the
headquarters level. After a pointed exchange of letters and discussions at the Stellwagen Bank
sanctuary between NMFS and the sanctuary program regarding the content and tone of the
sanctuary’s draft management plan, NMSP now plans to invite NMFS’ staff from the Offices of
                                                          Protected Resources and Sustainable Fisheries
  Figure 15. Fishery Management Councils                  to assist with draft management plans and
                                                          condition reports. While improved
  The regional fishery management councils (FMC)          coordination at headquarters is a positive step,
  advise NMFS on fishery management and other living
  marine resources issues. The voting members of the      we believe that NOS and NMFS should also
  eight councils include a representative from each state pay more attention to the relationships in the
  fishery management agency, an appointee from each       field.
 coastal state, at-large appointees from within the
 region, and the regional director of NMFS. FMCs also        During our review, NOS and NMFS officials,
 include commercial and recreational fishers and
 people knowledgeable in the conservation and                sanctuary program staff, NMFS regional
 management of fishing resources. Representatives of         administrators, fishery management council
 other government agencies are non-voting members.           executive directors, SAC members, and other
                                                             external stakeholders , including fishers and
 With public input the councils prepare fishery              environmentalists, told us when sanctuaries
 management plans that govern domestic fisheries in
 the U.S. Exclusive Economic Zone. After approval by         propose to regulate fishing, regional fishery
 the Secretary of Commerce, regulations that                 management councils respond strongly, armed
 implement management measures in the plan become            with their statute, the Magnuson-Stevens
 federal law and are enforced by NMFS, the U.S. Coast        Fishery Conservation and Management Act.
 Guard, and state agencies.

 Source: NMFS                                      The Magnuson-Stevens Act (MSA) and the
                                                   National Marine Sanctuaries Act (NMSA)
                                                   both provide the authority for NOAA to
administer the regulation of fishing in national marine sanctuaries. Under MSA, the fishery



                                                        47
U.S. Department of Commerce                                                  Final Report IPE-18591
Office of Inspector General                                                           February 2008

management councils produce with public input fishery management plans for all federal waters
(see Figure 15). And Section 304(a)(5) of the NMSA requires that the fishery management
councils be given the opportunity to draft regulations for fishing within the federal waters in a
sanctuary. NOAA presents a fishery management council with a package of information to assist
the council’s consideration of how to proceed. That package may include suggested actions for
consideration, including possible draft fishing regulations. The fishery management council has
three options: prepare draft NMSA fishing regulations, determine that NMSA regulations are not
necessary (e.g., they could determine actions should be taken under the MSA) or decline to make
a determination. Once the fishery management council has made its decision, NOAA conducts
an internal analysis to determine if the fishery management council’s decision would fulfill the
purposes and policies of the NMSA and goals and objectives for the requested regulations. In
some instances NOAA may need to determine whether the NMSA or MSA is the best vehicle to
meet the sanctuary’s stated goals and objectives.

Sanctuary fishing regulation disagreements have been acrimonious at several sites. For example,
in 1999 the Channel Islands sanctuary initiated a process in partnership with the state of
California to consider whether or not to designate marine reserves. The state designated its
portion of the network in state waters in 2003. In 2005 the Channel Islands sanctuary formally
proposed to establish the network in federal waters adjacent to the state network. The Pacific
Fishery Management Council received the sanctuary’s proposal for review, as required by law,
but reportedly was very concerned about NOS “taking on fishing regulations” to achieve
sanctuary conservation goals. Additionally, several senior NMFS and FMC officials told us that
the FMC was busy rebuilding salmon and regulating rockfish closures on the entire Pacific coast
at this time, and could not effectively mobilize the fishing community to respond to the proposed
reserves in the Channel Islands sanctuary. Several senior NMFS and FMC officials also noted
that fishery management councils now recognize that they need to regulate fishing in the
sanctuaries “or the sanctuaries will go ahead and do it themselves.” Several senior sanctuary
program officials characterized this as serving notice that the sanctuary program merits a seat at
the table with NMFS. In several regions we heard that the relationship between some sanctuary
and fishery officials is hampered by “uncertainty and distrust” and a lack of understanding of
each office’s mandate. It is time for senior leadership at headquarters and in the regions to
commit to addressing and resolving the regional conflicts.

We concluded that recurring obstacles to fuller cooperation between NMFS and the sanctuary
program include (1) a lack of coordination and communication at the front end of the sanctuary
program’s management plan review process and during the FMC’s fishery management plan
process; (2) a lack of long term data to inform NMSP and NMFS management decisions about
essential fishing habitats in the sanctuaries; and (3) continuing perceptions that the sanctuary
program’s resource protection mandate conflicts with NMFS’ and FMCs’ goals of promoting
sustainable fisheries.

NOS, NMSP and NMFS leadership have attempted to improve their working relationships with a
1992 memorandum of understanding, a 2002 principles and operating guidelines document, and
a 2005 document, called the wiring diagram. The latter document describes how NOAA will
administer the NMSA and MSA within sanctuaries and includes flowcharts and text outlining the
regulatory processes under each statute with emphasis on where NMSP and NMFS can improve



                                               48
U.S. Department of Commerce                                                      Final Report IPE-18591
Office of Inspector General                                                               February 2008

integration. Although each of the three documents
mentioned above was drafted to help improve NOS-            Figure 16. Examples of Collaboration
NMSP-NMFS relationships through more consistent,            Gray’s Reef Sanctuary—The sanctuary
“front loaded communication” and improved                   advisory council chairperson is on NMFS’
coordination “early on and often” during the process        staff and a memorandum of agreement is
of regulating fishing within a sanctuary, they have not     signed with the regional fisheries
always worked as intended. For example, several             management council. Sanctuary staff
                                                            regularly participates on several FMC
senior NMFS officials acknowledged that NMFS does           committees.
not always keep the sanctuary program “abreast of
NMFS activities, regulatory or scientific.” Likewise,       Monterey Bay sanctuary—An NMSP staff
we heard from both sanctuary and NMFS managers              member is collocated and shares resources
that it is sometimes cumbersome to include staff from       with NMFS’ Santa Cruz Lab. NMSP
                                                            hosted a meeting with the NMFS Science
NMFS or NOS in sanctuary or fishery management              Center and regional lab directors.
planning and implementation discussions and strategy
sessions, especially if staff is at a distance from where   In addition, a meeting was held in
the meetings are held.                                      November 2006 in San Diego between the
                                                            Pacific FMC and west coast sanctuary staff
                                                            and advisory council members to improve
Despite many attempts to improve collaboration,             working relationships.
persistent disagreements and lack of communication
between NMSP and NMFS have played a role in               Source: OIG interviews
causing long delays in several sanctuary management
plan reviews, and a disproportionate amount of resources and time have been spent by NMFS
and NOS deciding whether NMFS or the sanctuary program should regulate fishing in
sanctuaries. This confuses and fatigues community members and can compromise NOAA’s
ability to gain public trust. We found numerous examples of strong coordination and
opportunities that have improved collaboration at several sanctuaries between NOS and NMFS –
these could form the basis for improving working relationships. We recommend that NOS,
NMFS, and sanctuary program leadership commit to improved dialogue and coordination and
take action to improve NOS and NMFS partnerships at all sanctuary sites.

Recommendations:

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NMFS and NOS Assistant Administrators, take the necessary actions to ensure that:

   NMSP, NOS, and NMFS senior officials develop and issue clear guidance on how NMFS
    and NMSP will work together on specific matters, including (a) fishery management council
    (FMC) staff participation on sanctuary advisory councils, research advisory groups, and other
    relevant working groups, (b) sanctuary staff participation on relevant NMFS working groups,
    such as those on habitat, coral reef, and bottom mapping, and on FMC advisory committees,
    such as those on science and statistical, habitat, and education and outreach, and (c) FMC
    members and NMFS staff participation in the early development of sanctuary management
    plan reviews, and condition reports. Compliance with the new guidance should be a priority
    of all appropriate NMFS and NOS managers.




                                                 49
U.S. Department of Commerce                                                Final Report IPE-18591
Office of Inspector General                                                         February 2008

   NMSP, NOS, and NMFS senior officials bring their headquarters and regional leadership and
    staff together to discuss the new guidance and how they will work together on sanctuary-
    related matters.

   NMSP, NOS, and NMFS senior officials disseminate specific examples of successful
    collaboration between NMSP and NMFS at several sanctuary sites and take action to expand
    these opportunities.




In its response to our draft report, NOAA concurred with the three recommendations in this
section. NOAA noted that it has already begun assembling examples of successful collaboration
between NOS and NMFS, which NOAA will share with all NMFS regions and sanctuary sites.
NOAA also stated that the leadership of both line offices is working to ensure there is a
mechanism to continually highlight and share success stories and areas for improvement. To
improve coordination and collaboration, NOAA indicated that NMFS has recently named a
headquarters liaison to work specifically with NMSP on ensuring that regional Sustainable
Fisheries and Protected Resources staff are engaged early in the development of sanctuary plan
reviews and condition reports. Also, based on availability of funding, NOAA stated that it will
hold at least one meeting of relevant NMFS and NOS headquarters and regional leadership to
improve communication and collaboration. Finally, NOAA reported that NOS and NMFS have
recently approved the wiring diagram for “final consultation and subsequent dissemination,” and
that regional NOS and NMFS leadership will now be required to meet to discuss how the
diagram will be used at each sanctuary site. Once implemented, NOAA’s actions and planned
actions will meet the intent of our recommendation.




                                              50
U.S. Department of Commerce                                                 Final Report IPE-18591
Office of Inspector General                                                          February 2008


                          SUMMARY OF RECOMMENDATIONS

We recommend that the Under Secretary for Oceans and Atmosphere, in conjunction with
the NOS and NMFS assistant administrators and the NOAA General Counsel, strengthen
the marine sanctuary program by taking the necessary actions to ensure that:

1. The OLE director requires sanctuary liaisons to attend sanctuary advisory council meetings
   in their region (see page 17).

2. The NMSP director directs each sanctuary to create a law enforcement working group,
   consisting of federal and state law enforcement partners and other appropriate stakeholders,
   as part of the sanctuary advisory council (see page 17).

3. The OLE director requires the operations plan under each relevant joint enforcement
   agreement to include a detailed description of the type of sanctuary work to be performed by
   state and territorial government partners (including designated man hours) and that NMSP
   receives a regular report of the actions taken by the partners under the agreement
   (see page 20).

4. The NMSP director incorporates the activities outlined under the Memorandum of
   Agreement between it and the state of Florida under OLE’s joint enforcement agreement
   with Florida (see page 20).

5. The assistant general counsel for GCEL creates summary settlement schedules for the
   remaining sanctuary sites and updates the existing sanctuary summary settlement schedules
   (including the type of violations and penalty amounts), as appropriate (see page 20).

6. The NMSP director, the OLE director, and the assistant general counsel for GCEL work
   together to provide relevant joint enforcement agreement partners with regular agent and
   officer training on sanctuary regulations (see page 20).

7. The assistant general counsel for GCEL provides the sanctuary program with non-law
   enforcement sensitive information pertaining to ongoing and closed OLE cases (including the
   type of regulations violated, date and location of violations, and penalties assessed and
   collected) (see page 25).

8. The OLE director requires its agents and officers to mark the appropriate sanctuary box in
   the Law Enforcement Accessible Database System when nonsanctuary-related cases occur in
   a sanctuary (see page 25).

9. The OLE director and the assistant general counsel for GCEL include the appropriate
   sanctuary officials as addressees on the memos to NOAA finance when transferring funds to
   sanctuary civil penalty accounts (see page 25).




                                               51
U.S. Department of Commerce                                                    Final Report IPE-18591
Office of Inspector General                                                             February 2008

10. The NMSP director completes sanctuary management plan reviews promptly, consistent with
    the program’s performance measures and the requirements of the National Marine
    Sanctuaries Act (see page 29).

11. The NMSP director holds superintendents that have ongoing management plan reviews
    accountable for completing them within established timeframes (see page 29).

12. The NMSP director develops a strategy and a mechanism to estimate and identify resources
    to cover lifecycle maintenance and operational costs for existing or proposed sanctuary
    vessels, visitor centers, and data buoys. New vessels, facilities, or buoys should not be
    acquired or undertaken without identification of adequate resources to cover the outyear costs
    (see page 32).

13. The NMSP director conducts a review of viable alternatives and identifies the most effective
    and appropriate ways to (1) support visitor centers, including seeking statutory authority to
    collect and use entrance or user fees, and partnering with local associations that could
    support, raise funds, and promote volunteerism for the sanctuary visitor centers, and (2) pay
    for the operating and maintenance costs for sanctuary vessels and data buoys (see page 32).

14. The NMSP director instructs the science and research employees at sanctuary sites to work
    with education and outreach staff to (1) more effectively communicate significant sanctuary
    research results to key local constituencies and (2) publicize significant research results that
    might apply to other sanctuaries and key constituencies throughout the national sanctuary
    system (see page 40).

15. The NMSP director explores other Web-based data organization and integration efforts
    before continuing with a SIMoN roll-out outside of California, to avoid duplication of effort
    and resources and to minimize additional costs (see page 41).

16. NOAA requests that the U.S. Navy review its high resolution bathymetry data classification
    policy for the Pacific Northwest, the Southeast, and other areas important to NOAA, such as
    the continental shelf on the East Coast, and determine (1) whether the Navy’s high resolution
    bathymetry data holdings can be made available to NOAA and its partners, and (2) whether
    NOAA’s high resolution bathymetry data holdings can be made available its partners
    (see page 41).

17. NMSP, NOS, and NMFS senior officials develop and issue clear guidance on how NMFS
    and NMSP will work together on specific matters, including (a) fishery management council
    (FMC) staff participation on sanctuary advisory councils, research advisory groups, and other
    relevant working groups, (b) sanctuary staff participation on relevant NMFS working groups,
    such as those on habitat, coral reef, and bottom mapping, and on FMC advisory committees,
    such as those on science and statistical, habitat, and education and outreach, and (c) FMC
    members and NMFS staff participation in the early development of sanctuary management
    plan reviews, and condition reports. Compliance with the new guidance should be a priority
    of all appropriate NMFS and NOS managers (see page 46).




                                                 52
U.S. Department of Commerce                                              Final Report IPE-18591
Office of Inspector General                                                       February 2008

18. NMSP, NOS, and NMFS senior officials bring their headquarters and regional leadership and
    staff together to discuss the new guidance and how they will work together on sanctuary-
    related matters (see page 46).

19. NMSP, NOS, and NMFS senior officials disseminate specific examples of successful
    collaboration between NMSP and NMFS at several sanctuary sites and take action to expand
    these opportunities (see page 46).




                                             53
U.S. Department of Commerce                      Final Report IPE-18591
Office of Inspector General                               February 2008


   APPENDIX: NOAA MANAGEMENT RESPONSE TO THE OIG DRAFT REPORT




                               54
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              55
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              56
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              57
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              58
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              59
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              60
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              61
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              62
U.S. Department of Commerce        Final Report IPE-18591
Office of Inspector General                 February 2008




                              63
